U.S. DEPARTMENT OF THE INTERIOR
OFFICE OF INSPECTOR GENERAL

AUDIT REPORT




       U.S. DEPARTMENT OF THE INTERIOR
         HAZARDOUS MATERIALS SITE
              MANAGEMENT




                      Contaminated Mine Drainage

                Photo Courtesy of the Bureau of Land Management




C-IN-MOA-0040-2004                                                AUGUST 2005
                        EXECUTIVE SUMMARY
WHY WE DID THIS                WHAT WE FOUND
AUDIT
                              DOI is not adequately addressing the dangers posed by
The Department of the         known and suspected contaminated sites on its land, and as
Interior (DOI or Department) a result DOI has no assurance that it is effectively
manages one-fifth of the land protecting the public and the environment. DOI does not:
mass in the United States.
DOI’s stewardship                 ¾ Know how many contaminated sites are on its land.
responsibilities as a land
manager include mitigating        ¾ Have an active plan to discover sites.
sites contaminated by
hazardous materials to            ¾ Know if the most critical sites are being mitigated
protect the public and                first.
preserve the environment.
Our audit objective was to    DOI has not taken a proactive approach in managing
determine whether the         hazardous materials sites. Instead, the office charged with
Department has effective      program oversight focused primarily on the Central
processes to identify, track, Hazardous Materials Fund, which is a Congressional
and prioritize hazardous      mandate, and other external pressures, such as the need to
materials sites. We also      estimate liabilities for environmental cleanup for financial
worked with the               statement reporting purposes. We believe these efforts are
Environmental Protection      not sufficient to effectively manage hazardous materials
Agency’s (EPA) Office of      sites on DOI land.
Inspector General (OIG) to
identify relevant promising   The Department has not provided practical guidance to the
practices that DOI might use bureaus for identifying, tracking, and prioritizing
to enhance its processes.     contaminated sites, and does not oversee these activities.
                              Lacking Departmental leadership, the bureaus did not
                              assign sufficient priority to identifying hazardous materials
                              sites. In fact, three of the four bureaus we audited did not
                              have a proactive site identification process. The fourth
                              bureau had a process to identify contaminated sites, but
                              bureau officials estimated it will take 250 years to
                              complete this process.

                               In 1993 the Office of Inspector General reported that the
                               Department of the Interior had not identified and evaluated
                               the majority of hazardous materials sites on its land.
                               Further, the Department did not always prioritize
                               contaminated sites to ensure that the most serious sites
                               were cleaned up first. Our current audit found that little


                                           i
progress has been made in addressing these issues and the
Department still has serious deficiencies in its efforts to
identify and prioritize hazardous materials sites.

In addition to not adequately addressing the dangers of
hazardous materials sites, the Department’s inaction may
result in escalated cleanup costs. Delays in identifying
hazardous sites could hinder identification of the parties
responsible for the contamination, preventing the
Department from collecting the cleanup costs from these
parties. Delays in mitigating hazardous sites may allow the
contamination to spread and complicate cleanup efforts.

Our report recommends that the Department develop and
implement the necessary tools for a successful program,
such as a management information system, uniform
policies and procedures, and strong Departmental
leadership.




           ii
                                 TABLE OF CONTENTS
                                                                                                                PAGE

INTRODUCTION ....................................................................................... 1

         BACKGROUND ................................................................................................. 1
         EPA PROMISING PRACTICES .......................................................................... 3

RESULTS OF AUDIT ..................................................................................5

         LEADERSHIP AND GUIDANCE ...........................................................................6
         COMPREHENSIVE INVENTORY ..........................................................................7
         DISCOVERY OF SUSPECTED SITES ..................................................................10
         PRIORITIZATION PROCESS ..............................................................................11
         DOCUMENTATION ..........................................................................................13

RECOMMENDATIONS .............................................................................17

APPENDICES

         1. OBJECTIVE, SCOPE, AND METHODOLOGY ................................................21
         2. PRIOR AUDITS ..........................................................................................23
         3. LOCATIONS VISITED/CONTACTED............................................................27
         4. EVALUATION REPORT—EPA PRACTICES FOR IDENTIFYING AND
            INVENTORYING HAZARDOUS SITES COULD ASSIST SIMILAR
            DEPARTMENT OF THE INTERIOR EFFORTS ...............................................31
         5. ASSISTANT SECRETARY FOR POLICY, MANAGEMENT AND BUDGET
            RESPONSE APRIL 25, 2005……… ...........................................................73
         6. ASSISTANT SECRETARY FOR POLICY, MANAGEMENT AND BUDGET
            RESPONSE MAY 4, 2005...........................................................................89
         7. STATUS OF AUDIT RECOMMENDATIONS………………………………...93




                                                             iii
ACRONYMS
BIA ......................................................................................... Bureau of Indian Affairs
BLM..................................................................................Bureau of Land Management
CERCLA............................. Comprehensive Environmental Response, Compensation,
............................................................................................................. and Liability Act
CERCLIS ............................ Comprehensive Environmental Response, Compensation,
.................................................................................... and Liability Information System
CHF.......................................................................... Central Hazardous Materials Fund
DAS Group ................................... DOI Deputy Assistant Secretaries’ Advisory Group
...................................................................... on Environmental Policy and Compliance
DOI or Department ............................................................... Department of the Interior
ECL ...........................................................Environmental Cleanup Liabilities Database
EPA ...........................................................................Environmental Protection Agency
FWS ........................................................................................Fish and Wildlife Service
GAO.........................................................................Government Accountability Office
NPS .............................................................................................. National Park Service
OEPC .................................................Office of Environmental Policy and Compliance
OIG ..................................................................................... Office of Inspector General




                                                                iv
                                           INTRODUCTION
                                        This report presents the results of our audit of the Department of
                                        the Interior’s (DOI or Department) efforts to manage hazardous
                                        materials sites. The objective of our audit was to determine
                                        whether the Department has effective processes to identify,
                                        track, and prioritize hazardous materials sites.

    BACKGROUND                          As the nation’s principal conservation and largest land-
                                        controlling agency, the Department manages the natural
                                        resources on 507 million acres of public lands dispersed
                                        throughout the United States. Hazardous materials sites on DOI
                                        land may endanger human health, natural resources, and the
                                        environment. DOI allows numerous activities on its land that
                                        generate or use
                                        hazardous substances           WHAT IS A HAZARDOUS
                                        that could result in a         MATERIALS SITE?
                                        hazardous materials site.      A hazardous materials site is
                                        For example, oil and gas       where hazardous substances—
                                        drilling, mining, landfill     such as asbestos, fuel, arsenic, or
                                        operations, industrial         lead—have been improperly
                                        uses, and pesticide            managed or otherwise released
                                        applications may               creating substantial or potential
                                        contaminate water              threats to human health or the
                                        supplies or otherwise          environment. Hazardous
                                        damage the environment         materials possess at least one of
                                        and put the public at          the following four characteristics:
                                        risk. DOI’s own                ignitability, corrosivity, reactivity,
                                        operations—such as             or toxicity.
                                        underground fuel
                                        storage tanks—may be another source of contamination. DOI
                                        lands are also susceptible to illegal activities such as open
                                        dumping of potentially contaminated materials.

                                        In reports to the Office of Management and Budget, DOI has
                                        estimated that it might cost as much as $1.3 billion1 to assess,
                                        cleanup, and monitor these sites.

                                        Two principal environmental laws govern the management of
                                        hazardous materials and cleanup of contaminated sites. The
                                        Resource Conservation and Recovery Act (RCRA) of 1976, as

1
  The DOI may not be solely responsible for these estimated costs. Other parties may have been
responsible for the contamination at these sites and may be responsible for all or part of site remediation.


                                                      1
amended, applies to active operations and imposes strict controls
over hazardous materials from their creation to final disposal.
The Comprehensive Environmental Response, Compensation,
and Liability Act (CERCLA) of 1980, as amended, commonly
known as the Superfund Law, governs the cleanup of abandoned
and uncontrolled sites for potential or actual releases of
hazardous substances. Other laws, such as the Clean Water Act,
Toxic Substances Control Act, and the Clean Air Act, also
impact the Department’s management of hazardous materials
sites.

In the Department of the Interior, the Office of Environmental
Policy and Compliance (OEPC) has the responsibility to
oversee, coordinate, and review all aspects of DOI’s
environmental policy. OEPC is responsible for the
Department’s proactive environmental activities, such as
assisting bureaus in implementing strategies and management
controls to meet the requirements of Executive Order 13101
“Greening the Government Through Waste Prevention,
Recycling and Federal Acquisition.” OEPC assists bureaus in
developing programs to procure environmentally friendly
products and to prevent pollution by properly disposing of or
recycling DOI property. It is also responsible for overseeing,
coordinating, and reviewing all aspects of DOI’s involvement
with hazardous materials sites. This responsibility includes
tracking bureau and office site activities, providing a centralized
methodology for the prioritization of sites, and coordinating and
developing DOI environmental policy.

OEPC currently has approximately 39 employees, 1 of them is
responsible for managing the Department’s hazardous materials
site management activities.

OEPC also oversees the Central Hazardous Materials Fund
(CHF), which annually receives appropriations to allow the
Department to mitigate contaminated sites under Superfund




           2
                Law. OEPC is working
                with the Office of          CENTRAL HAZARDOUS
                Financial Management        MATERIALS FUND (CHF)
                to implement a
                Department-wide             In 1995, the Congress created the
                Environmental Cleanup       CHF to allow the Department to
                Liabilities database.       mitigate contaminated sites under
                This database is being      Superfund Law. This is the
                used to calculate the       Department’s only centralized
                Department’s liability      program for mitigating
                associated with             contaminated sites. In FY 2003,
                contaminated sites for      the CHF was funding cleanup
                financial statement         activities for 46 sites.
                reporting purposes.

                Our audit covered activities performed by OEPC and four
                bureaus—Bureau of Indian Affairs (BIA), Bureau of Land
                Management (BLM), Fish and Wildlife Service (FWS), and
                National Park Service (NPS). The scope and methodology of
                our audit is detailed in Appendix 1.

EPA PROMISING   We requested EPA-OIG’s assistance in identifying promising
PRACTICES       practices employed by EPA. EPA has over 20 years experience
                with information systems and processes to identify, assess,
                prioritize, and estimate costs of hazardous materials sites
                through EPA’s implementation of the Superfund program. We
                believe the Department could benefit from EPA’s extensive
                knowledge in addressing hazardous materials sites.

                EPA-OIG identified promising practices in the areas of site
                discovery, site assessment, prioritization, and cost estimating.
                We have included summaries about EPA promising practices
                within our report. EPA-OIG’s Evaluation Report with the full
                description of the promising practices is included as Appendix 4.




                           3
This Page Intentionally Left Blank




                4
                             RESULTS OF AUDIT
                              The Department has yet to implement an active process to
More than a decade after      identify potentially hazardous sites, does not have a
significant problems were     complete inventory of known or suspected contaminated
identified in the program,    sites, and does not have a system to prioritize hazardous
DOI has not made              materials sites.
discernable progress in
strengthening the program.    This occurred primarily because the Department did not
                              provide sufficient leadership, guidance, or oversight to the
                              bureaus. None of the bureaus we audited had a complete
                              listing of all known hazardous materials sites, and only one
                              of the bureaus had an ongoing process to assess the
                              condition of its lands. Further, bureaus gathered and
                              recorded hazardous materials site data in an inconsistent
                              and uncoordinated manner. The resulting patchwork of
                              information is not adequate for the Department to manage
                              contaminated sites or ensure accurate financial reporting.

                              Without effective processes to manage hazardous materials
                              sites, DOI is prolonging potential public and environmental
                              exposure to hazardous contamination and toxic substances.
                              For example, the Bureau of Land Management (BLM) was
                              aware of contamination at a site in 1988 but did not include
                              the site in its inventory, nor was it added to the
                              Department’s inventory until 2005. Additional testing in
                              2002 showed both lead and arsenic levels at the site
                              exceeded BLM established critical levels by 17 and 20
                              times, respectively. BLM took no action to warn the
                              public of the contamination between 1988 and 2005;
                              meanwhile:

                                 ¾ An elementary school was constructed about 1/3
                                   mile from the contaminated area.

                                 ¾ Existing houses continued to be dependent on water
                                   wells about 800 feet away from the site. Initial
                                   testing has found one well to be contaminated with
Auditors observed                  high levels of lead and arsenic.
individuals collecting rock
samples and taking them          ¾ New houses are being constructed about 1 mile
from the contaminated area.        from the site.




                                         5
                                            ¾ The site, including the contaminated areas, has
                                              become a popular spot for recreation activities such
                                              as driving All-Terrain-Vehicles and camping2.

                                       Lacking an adequate process for administering hazardous
                                       materials sites, DOI is also risking increased liability for
                                       escalating cleanup costs and decreased probability of
                                       identifying the parties responsible for the contamination
                                       and associated cleanup.

    LEADERSHIP AND                     The Department has not taken an active leadership or
    GUIDANCE                           oversight role in the management of hazardous materials
                                       sites. Initially, OEPC officials told us that they did not
    OEPC has not actively              have the authority to oversee the bureaus’ actions in regard
    overseen the bureaus’              to inventorying, prioritizing, and assessing hazardous
    activities and has not issued      materials sites. However, the Departmental manual makes
    Department-wide policies           it clear that, since 1989, OEPC has had the authority to:
    and procedures.
                                            ¾ Issue policy and procedures.

                                            ¾ Review and comment on bureau hazardous
                                              materials budgets.

                                            ¾ Track bureau site activities.

                                            ¾ Provide a centralized methodology for site
                                              prioritization.

                                            ¾ Oversee all categories of contaminated sites.

                                            ¾ Advise the Assistant Secretary for Policy,
                                              Management and Budget on cleanup alternatives.

                                       We found however, that OEPC has not issued appropriate
                                       policy and procedures. Also, OEPC officials stated that
                                       historically the bureaus have operated independently in
                                       regard to managing hazardous materials sites and that
                                       OEPC did not have the tools available to ensure the
                                       bureaus adhere to uniform procedures.



2
  On March 15, 2005, the OIG issued a flash report (C-IN-BLM-0013-2005) identifying public safety
issues at this site. The report made four recommendations to correct the safety issues and protect the
public. In its response to our report, BLM agreed to take appropriate action to address the
recommendations.



                                                     6
                                      While OEPC has not exercised all its authorities, it has
                                      coordinated and administered the Central Hazardous
                                      Materials Fund (CHF). The CHF is funded to mitigate
                                      some of the Department’s highest known priority sites.
                                      According to DOI, since 1995 it has expended nearly $100
                                      million and negotiated with responsible parties to
                                      contribute funds and services for site cleanup with an
                                      estimated value of $150 million. The CHF, however,
                                      addresses only about 5 percent of the Department’s current
                                      inventory of hazardous materials sites3.

                                               CHF Sites Represent 5% of the Department's
                                                               Inventory


                                                                                     CHF
                                                                                     5%




                                             Other
                                             95%                                   CHF     Other




                                      The bureaus’ current fragmented policies and procedures
                                      prevent effective Department-wide management and do not
                                      ensure that the most critical sites are being addressed first.

    COMPREHENSIVE                     The Department does not have a comprehensive inventory
    INVENTORY                         of its known and suspected hazardous materials sites.
                                      Since 1993, OIG and Government Accountability Office
    The Department of the             (GAO) reports (see Appendix 2) have emphasized the need
    Interior’s inventory of           for a comprehensive inventory of hazardous materials sites
    known and suspected               on DOI lands. A comprehensive inventory is needed to
    hazardous sites lacks the         expedite risk assessments and make reliable cleanup and
    information to make               prioritization decisions necessary to protect the public and
    responsible management            the environment.
    decisions.
                                      In 2003, the Department started developing the
                                      Environmental Cleanup Liabilities Database (ECL) for
                                      financial reporting purposes to replace the annual process
                                      of assembling a list of environmental liabilities from the
                                      individual bureaus. Department officials told us that they

3
  Our audit showed that the Environmental Cleanup Liabilities Database (ECL) is incorrect and does not
include all known hazardous materials sites (see p. 7).


                                                     7
                                        planned to use the ECL as a management tool for
                                        hazardous materials sites and as an inventory of hazardous
                                        materials sites. The ECL is compiled by bureau officials
                                        from hazardous materials site data maintained at the bureau
                                        or field office level. The types and quality of the data
                                        included in the ECL varies. For example, some bureaus
                                        added additional information about the types of
                                        contamination at a specific hazardous materials site in the
                                        comments section of the database, while other bureaus did
                                        not. Our audit determined that the ECL does not include
                                        all known and suspected hazardous materials sites and does
                                        not include the kinds of information needed for the ECL to
                                        be used as a management tool.

                                        Incomplete Database

                                        The ECL is incomplete as an inventory of hazardous
                                        materials sites on DOI land because the bureaus did not
                                        record all known or suspected4 contaminated sites. For
                                        example:

                                            ¾ The Fish and Wildlife Service (FWS) had a
                                              common practice of not recording contaminated
                                              sites in the inventory unless the estimated cleanup
                                              costs exceeded $250,000 per site. As a result, FWS
                                              did not record at least 25 known contaminated sites
                                              in the inventory with a total estimated cleanup cost
                                              of $1.6 million.

                                            ¾ The National Park Service (NPS) has not yet
                                              recorded nine suspected sites on the ECL that were
                                              discovered in 1976 at a park which is located in a
                                              highly populated area. As of FY 2004, none of
                                              these sites have been recorded in the ECL.

                                        Department officials were aware the ECL represented an
                                        incomplete inventory of hazardous materials sites but took
                                        little or no action to ensure that all known sites were
                                        recorded. For example, OEPC officials noted that five
                                        contaminated sites receiving cleanup funds from the CHF
                                        in FY 2003 were not recorded in the Department’s
                                        inventory, but the OEPC officials did not require the
                                        bureaus to enter these sites into the database.
4
 For purposes of our audit we defined a suspected hazardous materials site as a site identified by the public
or Departmental employees where there has been a suspected release of hazardous materials or other
contamination. These sites need to be included in the Department’s inventory so that the sites can be
prioritized and funded for testing and assessment.


                                                     8
Management Information

The Department’s current inventory of hazardous materials
sites—the ECL—lacks the information needed to make
responsible management decisions. Also, the inventory
does not have needed reporting capabilities, such as the
ability to generate a list of prioritized sites. A management
information system should contain information such as:

   ¾ Type and extent of contamination.

   ¾ Risks to human health or the environment.

   ¾ Identification of parties responsible for cleanup
     costs.

   ¾ Specific site location.

The Department’s current ECL is not designed to capture
this data. Some bureaus enter a portion of the data in a
comments section of the database, but others do not.

Further, while the bureaus maintain information such as
type of contamination or geographic location about known
and suspected hazardous materials sites, the information is
collected and maintained in an inconsistent manner. For
example, one bureau may record a site by the type of
contamination, and another bureau may use geographical
reference names. Also, some bureaus list the types of
contaminants while others do not.

In addition to inconsistencies among bureaus, there are
often inconsistencies within bureaus regarding how a site is
recorded. For example, one BLM field office records
several mine features, such as individual shafts, buildings,
and tailings, as one hazardous site. Another field office
lists each feature as a separate site. This has occurred
because the Department has not provided guidance or
oversight on the types of information to be collected,
maintained, or submitted.

As a result, the Department’s database is incomplete,
inconsistent, and not suitable for making sound
management decisions or providing accurate financial data.
Nor can the Department obtain complete and consistent


           9
                              data from the bureaus. Complete and accurate inventory
                              data are necessary for the Department to evaluate,
                              prioritize, and monitor hazardous sites.

                              EPA’s report provides background information on EPA’s
                              management information system. A review of this system
                              may be helpful to DOI to develop a comprehensive
                              management information system. EPA identified
                              consistent terminology in the management information
                              system as critical to its success because of the reliance on
                              data from multiple bureaus. For EPA’s Comprehensive
                              Environmental Response, Compensation, and Liability
                              Information System (CERCLIS), EPA requires state and
                              tribal data to comply with standards established by the
                              Environmental Data Standards Council. EPA noted these
                              standards could serve as a useful tool for DOI to review
                              and use when building its management information system.

DISCOVERY OF                  DOI does not have a proactive process to identify
SUSPECTED SITES               hazardous materials sites and evaluate the risks posed to
                              human health, wildlife, and the environment. Our audit
The bureaus employ a          also found three of four bureaus did not have a proactive
reactive approach to site     site identification program. One bureau has initiated a site
discovery often only          discovery process. However, based on its current plan the
recording sites after they    bureau will need approximately 250 years to complete its
have been identified by the   review.
public.
                              The bureaus employ a reactive approach to site discovery,
                              often only recording sites after the sites have been
                              identified by the public. GAO reported in 1999 that
                              sometimes BLM only identified hazardous sites following
                              injuries to citizens or livestock.

                              The bureaus have told us that it is not practical to visually
                              inspect every acre for potential contamination.
                              While we agree that it may not be practical to inspect every
                              acre, the Department and its bureaus are not effectively
                              using the tools and information that are available to
                              identify hazardous materials sites. For example, existing
                              databases and management information systems, such as
                              the systems designed for oil and gas lease management or
                              its facilities information systems, contain useful
                              information. However, the Department did not provide
                              guidelines or instructions to the bureaus on how to use
                              these databases.




                                         10
                                                      PROACTIVE SITE DISCOVERY
                                                                  PROCESS
                                                     Databases maintained by the
                                                     bureaus contain information on
                                                     potentially contaminated sites.
                                                     We reviewed information from
                                                     the Bureau of Indian Affairs’
                                                     (BIA) maintenance
                                                     management system and
                                                     initially identified 1,378
                                                     facilities with potential
                                                     asbestos contamination. After
                                                     further review of the
                                                     information in the system, we
                                                     narrowed the number of
                                                     facilities to be reviewed to 10.


                                    EPA identified several promising practices to aid DOI in
                                    creating a useful site discovery process. EPA suggests that
                                    DOI should examine existing site inventories and work
                                    with states, tribes, and communities to obtain information
                                    to identify potential sites. EPA also suggests DOI develop
                                    user-friendly checklists that employees could use to create
                                    initial reports of potential hazardous materials sites. Like
                                    EPA, DOI could provide a web-based petition for citizens
                                    to formally refer a potential site.

    PRIORITIZATION                  The Department does not prioritize and rank all of its
    PROCESS                         hazardous materials sites. In multiple reports, our office
                                    and GAO have identified the need for the Department to
    The Department cannot           prioritize sites on a national basis. The Department has
    determine which sites need      agreed with these recommendations, but it still has not
    to be addressed first.          implemented a Department-wide prioritization process. In
                                    1993, OEPC developed a pilot program to rank sites on a
                                    nationwide basis; however, this ranking system was never
                                    finalized or published as Departmental guidance.

                                    The Department has a process to prioritize sites nominated
                                    for funding by the CHF, the Department’s central cleanup
                                    fund. A 2003 review of the Department’s CHF conducted
                                    by the Bureau of Reclamation (BOR)5 found that the

5
  The BOR completed the Department of the Interior’s Central Hazardous Materials Fund Program Review
in December 2003. The objectives of the review were to review and document the DOI’s CHF objectives
and programmatic procedures and to evaluate the effectiveness of the program.


                                                11
resulting prioritizations were adequate. However, these
sites account for only 5 percent of the Department’s
recorded inventory and may not represent the only critical
sites. The Department does not prioritize the remaining 95
percent of the inventory.

The bureaus have some information regarding
prioritization of hazardous materials sites on bureau land,
but the information is not complete or comparable. We
found that bureaus developed varying methods for
establishing priorities and making funding decisions for
contaminated site mitigation.

BLM prioritizes sites only within program areas, rather
than across the Bureau as a whole. For example,
contaminated sites resulting from abandoned mines are not
ranked against open dumps. Historically, BIA split
funding roughly equally across regions, without even
considering the relative risks of sites in the individual
regions. Because BLM and BIA are not prioritizing all
possible sites, they do not have assurance that they are
addressing the most serious sites first. Consequently, the
Department cannot use the bureaus’ prioritization results to
identify its highest priority sites. Therefore, the
Department also lacks assurance that the most serious
hazardous sites are being cleaned up first.

In contrast, both NPS and FWS conduct site prioritization
based on information submitted by the parks or refuges.
Because NPS and FWS rank sites on a national basis, these
Bureaus have some assurance that the most critical sites
are being addressed first. However, DOI does not request
this data.

To establish a prioritization process, EPA offered the
following promising practices:

   ¾ Develop a risk-based method to prioritize
     hazardous materials sites and apply an approach
     that ranks sites based on current and future land
     uses, ecological risks, and tribal factors/cultural
     considerations.

   ¾ Develop a tracking mechanism for sites DOI sets
     aside as not requiring cleanup actions. DOI should
     work with states, tribes, and communities to stay



           12
                                                aware of changing site conditions that may warrant
                                                reprioritization of already evaluated sites.

    DOCUMENTATION                      Cost estimates and financial liability codes6 for hazardous
                                       materials sites were not always adequately supported. The
    The Department and its             bureaus and the Department rely on this information to
    bureaus may not have               prepare annual financial statements. Bureau officials
    reliable data for management       assign liability codes to hazardous materials sites based on
    purposes or financial              the likelihood that the bureau or Department will be
    reporting.                         financially responsible for the cleanup costs. For financial
                                       reporting purposes this code dictates whether the estimated
                                       cleanup costs will be accrued, disclosed, or undisclosed in
                                       the bureau and Department financial statements.

                                       We reviewed 125 site files (14 percent) of the 911 sites
                                       listed on the FY 2003 ECL. Cost estimates for 108 (86
                                       percent) of the 125 sites were not adequately supported.
                                       Additionally, for the 125 site files we evaluated, 103 (82
                                       percent) did not have supporting documentation to justify
                                       the liability code selected. As a result, the Department and
                                       the bureaus may not have reliable data for management
                                       purposes or financial reporting.

                                       Cost Estimates

                                       Bureau support for the cost estimates reported on the ECL
                                       was inconsistent. Some bureaus reported estimates that
                                       officials could not explain. For example, NPS identified a
                                       suspected hazardous materials site at a former landfill and
                                       has been reporting an estimated cost for site assessment
                                       work of between $50,000 and $1,000,000. NPS, however,
                                       had no supporting documentation for this estimate and
                                       current park employees did not know how it was
                                       developed. In other instances, bureaus had well
                                       documented cost estimates but reported other amounts in
                                       the inventory without explanations. For example, BIA,
                                       BLM, FWS, and NPS had professional contractors prepare
                                       cost analyses for site cleanup. The estimates in the
                                       inventory did not match the cost analyses prepared by the

6
  Hazardous materials sites may be assigned a financial liability code of probable, reasonably probable, or
remote. Probable means that the future outflow or other sacrifice of resources is more likely to occur than
not, and cost estimates for these hazardous materials sites are accrued in the financial statements.
Reasonably probable means that the chance of future outflow or other sacrifice of resources is more than
remote but less than probable. Cost estimates for reasonably probable hazardous materials sites are
disclosed in the financial statements. Remote means that the chance of future outflows occurring is slight
and cost estimates for these hazardous materials sites are neither accrued nor disclosed in the financial
statements.


                                                    13
contractors. Bureau officials could not explain the
differences.

At many site locations, cost estimates were derived based
on the historical knowledge of bureau employees. The site
files did not contain adequate documentation explaining
the methodologies and assumptions used to develop the
estimates. For example, supporting documentation for the
estimate did not identify the type and extent of
contamination or describe cleanup options. Without this
type of information, cost estimates may not be reliable and
cannot be easily updated.

EPA staff use a web-based tool to prepare cost estimates
for each work assignment at a site. Such a tool would walk
the bureau employees through a series of questions about
the site and then provide standard or historical reference
information to build the cost estimate. This tool would
automatically create documentation on the methodology
and assumptions used to develop a cost estimate. Cost
estimates will be easier to update with this information
readily available. Also, the basis for the cost estimates
would be more consistent between bureaus and among
bureau field offices.

Financial Liability Codes

The bureaus and the Department do not have
documentation available to support the liability code
assigned to specific hazardous materials sites. Without
supporting documentation neither the bureaus nor the
Department can verify the chosen liability codes.

In most instances, we did not have enough information to
assess the liability codes for the hazardous materials site
files reviewed. However, in two cases we identified
incorrect codes. Specifically, for two NPS sites where
NPS had caused the contamination, the assigned liability
codes did not reflect NPS’s culpability and responsibility
to pay for the cleanup actions. Based on our audit work,
NPS corrected these errors prior to financial reporting for
FY 2004. This situation raises concerns as to the accuracy
of the information reported in the financial statements for
Environmental Contingent Liabilities. Financial statement
auditors have identified similar problems in the FY 2002
and FY 2003 financial statement audits. The Department


          14
needs to take steps to validate the liability codes on its
inventory.

EPA did not identify any specific promising practices to
improve DOI’s documentation for liability codes. BIA,
however, has a manual, which includes standardized forms
to document this process. The Department should consider
using BIA’s form, or something similar, across all bureaus
to support the decisions on liability codes.




           15
This Page Intentionally Left Blank




               16
                 RECOMMENDATIONS
                   To address the deficiencies identified in this report, we
                   made seven recommendations to the Assistant Secretary
                   for Policy, Management and Budget (PMB). PMB
                   provided the OIG with its initial response to the draft
                   report on April 25, 2005 (Appendix 5). Subsequent
                   discussions with OEPC resulted in a supplemental
                   response which was received on May 4, 2005 (Appendix
                   6). Both responses were considered in our comments and
                   in preparation of the final report.

                   Our recommendations and assessment of PMB’s responses
                   follow:

                     1. Require OEPC to develop and implement uniform
                        policies and procedures for bureaus to identify and
                        prioritize hazardous sites.

PMB RESPONSE       In its May 4, 2005 response to the draft report, PMB
                   concurred with the recommendation. However, PMB did
                   not specifically address the need to develop and implement
                   uniform policies and procedures for bureaus to prioritize
                   hazardous sites. Specifically, PMB stated:

                       The Director, OEPC will request that the DOI
                       Deputy Assistant Secretaries’ Advisory Group
                       on Environmental Policy and Compliance (DAS
                       Group) convene for discussion and for decision
                       on whether a uniform policy for identification
                       and discovery is needed. The DAS group will
                       meet not later than the fourth quarter FY 2005
                       to make this decision. The Director, OEPC will
                       inform the OIG of the outcome of the DAS
                       Group meeting within one week of the date of
                       such meeting and provide the OIG with any
                       guidance developed.

OIG CONCLUSION     OIG will consider this recommendation resolved if the
                   DAS group recommends that OEPC take action to develop
                   and implement uniform policies and procedures for
                   bureaus to both identify and prioritize hazardous sites.




                             17
                   2. Require OEPC to oversee the Bureaus’ actions to
                      ensure compliance with policy and procedures.

PMB RESPONSE     In its May 4, 2005 response to the draft report, PMB
                 concurred with this recommendation. According to PMB,
                 if the DAS group directs OEPC to provide guidance and
                 oversight on uniform policies and procedures as discussed
                 in Recommendation 1, it will do so.

OIG CONCLUSION   OIG will consider this recommendation resolved if the
                 DAS group recommends that OEPC take action to oversee
                 the Bureaus’ actions to ensure compliance with policy and
                 procedures

                   3. Require OEPC to develop a Management
                      Information System that captures consistent and
                      accurate data for all hazardous materials sites.

PMB RESPONSE     In its May 4, 2005 response to the draft report, PMB
                 concurred with this recommendation. According to PMB,
                 OEPC is developing the ECL database to be both a
                 management information system (MIS) and to support the
                 accounting system. The ECL will be designed to capture
                 accurate and consistent site information based on available
                 data.

OIG CONCLUSION   OIG considers this recommendation resolved but not
                 implemented.

                   4. Require the bureaus to revaluate current cost
                      estimates and liability codes for accuracy and report
                      accurate information to OEPC.

PMB RESPONSE     In its May 4, 2005 response to the draft report, PMB
                 concurred with this recommendation. According to PMB,
                 OEPC is working with the Office of Financial
                 Management and the bureaus to address these issues and
                 will establish requirements to reevaluate, review, and
                 document costs on an annual basis. The first set of the
                 reviews will be done by the end of the fourth quarter FY
                 2005.

OIG CONCLUSION   OIG considers this recommendation resolved but not
                 implemented.




                           18
                   5. Provide the necessary resources to OEPC to
                      implement an effective hazardous site management
                      program.

PMB RESPONSE     In its May 4, 2005 response to the draft report, PMB
                 concurred with this recommendation pending the DAS
                 groups’ decision. Budget guidance for FY 2007 will
                 include a review of OEPC to determine whether additional
                 resources are needed. If so, the request for additional
                 resources will be reviewed by the DAS group. The
                 analysis of OEPC’s resource requirements will be done by
                 the end of the third quarter FY 2006.

OIG CONCLUSION   OIG considers this recommendation resolved but not
                 implemented.

                   6. Evaluate current resource levels against cleanup
                      needs. Request additional resources if necessary to
                      address critical sites promptly.

PMB RESPONSE     In its May 4, 2005 response to the draft report (Appendix
                 6), PMB concurred with this recommendation. According
                 to PMB, the implementation of the ECL database will
                 provide a more complete assessment of cleanup and
                 environmental management needs, which in turn will be
                 worked into the budget process.

OIG CONCLUSION   OIG considers this recommendation resolved but not
                 implemented.

                   7. Consider EPA’s promising practices when
                      developing new procedures and tools for identifying,
                      tracking, and prioritizing hazardous materials sites.

PMB RESPONSE     In its May 4, 2005 response to the draft report, PMB
                 concurred with this recommendation. According to PMB,
                 the DAS group will review the contents of the report and
                 provide any recommendations to OEPC.


OIG CONCLUSION   OIG considers this recommendation resolved but not
                 implemented.




                           19
This Page Intentionally Left Blank




               20
                                                                               Appendix 1


     OBJECTIVE, SCOPE, AND METHODOLOGY
The objective of our audit was to determine whether the Department and its bureaus have
effective processes to identify, track, and prioritize hazardous materials sites. This audit
was completed in partnership with the Environmental Protection Agency (EPA) Office of
Inspector General (OIG). EPA’s OIG summarized EPA’s process of discovering,
assessing, prioritizing, and cost estimating hazardous materials sites for cleanup and
identified promising practices for consideration by the Department of the Interior (DOI or
Department).

The scope of our audit covered federal lands under the management of the Department.
We conducted audit verification work at the Department and four bureaus: Bureau of
Indian Affairs (BIA), Bureau of Land Management (BLM), Fish and Wildlife Service
(FWS), and National Park Service (NPS). We used the Environmental Cleanup
Liabilities Database (ECL) as of September 30, 2003, as the baseline for our audit. The
following areas were excluded from the scope of this audit: currently operating sanitary
landfills; transportation, storage, and handling of hazardous materials; current operations
at DOI facilities; physical hazards; and identification of actual or potential contamination
on lands newly acquired or to be acquired.

As part of our audit, we sent a questionnaire to 101 bureau officials and conducted audit
fieldwork to obtain information on hazardous materials site management. However, we
based our audit conclusions only on the information we validated during our fieldwork.
We did not use the questionnaire because our fieldwork indicated that the responses were
not reliable. For example, 30 out of 53 respondents stated that they discover hazardous
sites by performing periodic inventories or by conducting surveys of public land.
Conversely, audit work at regional, state, and field locations of the four bureaus we
reviewed showed that three bureaus did not conduct periodic inventories or surveys of
public land to identify hazardous sites and the fourth bureau had an ineffective program.

To accomplish our objective, we gained an understanding of both Department and bureau
roles in the site discovery, assessment, and prioritization process. To assess the
effectiveness of the program, we conducted the following audit steps:

   ¾ Gathered general, administrative, and background information to provide us with
     a working knowledge of the hazardous materials site program at the Department
     and bureau organizational levels.

   ¾ Identified the policies and procedures used by DOI and its bureaus to inventory
     and prioritize hazardous sites.

   ¾ Identified the policies and procedures that DOI and its bureaus use to estimate the
     costs of site assessment and cleanup.


                                             21
   ¾ Identified the procedures that DOI uses to provide oversight for hazardous sites.

   ¾ Examined supporting documentation, existing bureau and EPA databases, and
     Department data to identify sites that were not recorded on the Department’s
     inventory.

   ¾ Examined supporting documentation for cost estimates to determine if reported
     amounts were accurate.

   ¾ Examined documentation to determine if assignment of liability codes was
     supported.

We performed our audit from February 2004 to March 2005 in accordance with the
Government Auditing Standards issued by the Comptroller General of the United States.
Accordingly, we included such tests of records and other auditing procedures that we
considered necessary under the circumstances. We included tests of internal controls and
compliance with laws and regulations to the extent necessary to satisfy the audit
objective. Internal control and compliance weaknesses identified during our audit are
discussed in the Results of Audit section of this report. The recommendations, if
implemented, should improve the internal controls in these areas. Because our review
was limited, it would not necessarily have disclosed all internal control deficiencies or
noncompliance with laws and regulations that may have existed at the time of our audit.
To satisfy the Government Accountability Office (GAO) Government Auditing
Standards on relying on the work of others, we reviewed the EPA audit team’s
qualifications, roles, and responsibilities for the audit; statements of independence; and
the audit plan. We concluded that EPA is qualified to perform its portion of the audit and
that the audit plan was designed to gather relevant and competent audit evidence. EPA’s
audit work is significant to our audit and we relied on and referred to it in this audit
report.




                                           22
                                                                            Appendix 2


                              PRIOR AUDITS
We reviewed audit reports issued as far back as 1993 by our office; the Government
Accountability Office (GAO); and KPMG LLP, a certified public accounting firm, that
made recommendations similar to those in this audit report.

   ¾ In March 1993, we issued a report titled Management of Hazardous Materials by
     the Department of the Interior. The key issues in the report were:

             The Department had not identified the majority of suspected hazardous
              materials sites.

             Individual bureaus within the Department conducted the site identification
              and inventory process in an inconsistent, uncoordinated manner, with
              minimal Departmental guidance.

             Contaminated sites were not always prioritized to ensure that the most
              serious situations would be corrected first.

       The audit report recommended that the Department:

             Direct the bureaus to develop actions plans to ensure that hazardous
              materials site inventories are completed.

             Require the Office of Environmental Affairs (currently the Office of
              Environmental Policy and Compliance) to develop and implement
              Department-wide inventory guidelines and procedures to ensure that the
              bureaus conduct comprehensive inventories.

             Require the Office of Environmental Affairs to develop and implement a
              Department-wide prioritization system.

             Authorize and require the Office of Environmental Affairs to perform
              independent oversight of bureaus’ hazardous materials site inventory,
              evaluation, prioritization, and cleanup activities.

             Provide the Office of Environmental Affairs with necessary resources,
              both funding and staffing, to accomplish its additional Hazardous
              Materials Program oversight and reporting responsibilities.




                                          23
¾ In July 1994, GAO issued a report titled Federal Facilities: Agencies Slow to
  Define the Scope and Cost of Hazardous Waste Cleanups. The key issues in this
  report that related to DOI contaminated site management were:

          Inventories of hazardous materials sites were still incomplete for some of
           the Department’s agencies.

          BLM and FWS lack a comprehensive program for identifying hazardous
           sites.

          Studies by Congressional committees and the Department concluded that,
           despite the possible enormity of cleanup problems, the Department’s
           agencies have failed to adequately identify and address problems of
           hazardous materials contamination on their lands.

   GAO recommended that Congress amend CERCLA to require agencies to submit
   to EPA plans for completing their hazardous materials site inventories, reporting
   annually on the progress of implementation of their plans, and to develop and
   report estimates of total costs to cleanup their potential hazardous materials sites.

¾ In June 1996, GAO issued a report titled Federal Facilities: Consistent, Relative
  Risk Evaluations Needed for Prioritizing Cleanups. The key issues in the report
  that related to DOI contaminated site management were:

          The Department had developed a centralized process for setting priorities
           for Central Hazardous Material Fund (CHF) sites, but bureaus set
           priorities for all other sites.

          The Department cannot fully set priorities without a complete inventory of
           contaminated sites and adequate data on the risks at these sites.

          The Department does not adequately evaluate the relative risks of its sites
           Department-wide.

   GAO suggested that Congress consider amending CERCLA to require federal
   agencies to develop a consistent process for assessing and ranking the relative
   risks of hazardous materials sites and to employ this process as a factor in setting
   priorities for federal hazardous materials cleanups nationwide.

¾ In April 1999, GAO issued a report titled Superfund: Progress Made by EPA and
  other Federal Agencies to Resolve Program Management Issues. The key issues
  in the report that related to DOI contaminated site management were:

          BLM has not set nationwide cleanup priorities because it has not yet
           developed an overall cleanup strategy or a comprehensive inventory of its




                                        24
           hazardous materials sites, estimated to cost billions of dollars to address.
           GAO first identified this problem in a report issued in 1987.

¾ In the FY 2002 annual financial statement audit, KPMG reported that there were
  weaknesses in the Department’s controls over environmental liabilities. KPMG
  reported that the Department of the Interior:

          Had not fully developed policies and procedures for estimating
           environmental liabilities.

          Did not have a prioritized list of cleanup activities, planned cost studies,
           and projects by risk score factor.

          Did not provide sufficient direction to regional locations to prepare and
           submit funding requests and to communicate funding results back to the
           regions.

          Did not have policies to ensure identification of the responsible party for
           environmental liabilities.

          Did not consistently apply the same methodology to estimate liabilities.

          Did not have a sufficient number of specialists to assist with the cost
           estimation process and monitor cleanup efforts.

          Had not developed a Departmental prioritized cleanup plan or developed
           and communicated policies on preparing and submitting funding requests.

          Did not require its components to apply the same methodology to estimate
           liabilities.

¾ In the FY 2003 annual financial statement audit, KPMG reported that there were
  weaknesses in the Department’s controls over environmental liabilities. KPMG
  reported that the Department of the Interior did not:

          Consistently research and document the basis for changes to
           environmental liabilities.

          Consistently apply policies for estimating environmental liabilities.

          Provide periodic training to scientists, financial management staff, and
           others to ensure that they understand the Department’s and federal
           accounting standards on environmental liabilities.

          Establish controls to ensure that changes in environmental liabilities are
           properly researched, supported, and recorded.



                                         25
This Page Intentionally Left Blank




            26
                                                                       Appendix 3


               LOCATIONS VISITED/CONTACTED

Department of Health and Human Services
    Office of Tribal Programs                          Rockville, Maryland*

Department of the Interior
    Office of the Secretary

    Office of Environmental Policy and Compliance      Washington, DC
    Office of the Solicitor                            Washington, DC*

    Bureau of Indian Affairs

    Division of Accounting Management                  Washington, DC*
    Division of Energy and Minerals Resources          Lakewood, CO
    Division of Environmental and Cultural
      Resources Management                             Washington, DC*
    Eastern Oklahoma Region Office                     Muskogee, OK*
    Jicarilla Agency Office                            Dulce, NM*
    Navajo Region Office                               Gallup, NM
    Northern Pueblos Agency                            Espanola, NM*
    Northwest Region Office                            Portland, OR
    Office of Facilities Management and Construction   Albuquerque, NM*
    Rocky Mountain Region Office                       Billings, MT*
    Southern Pueblos Agency                            Albuquerque, NM
    Southwest Region Office                            Albuquerque, NM
    Western Region Office                              Phoenix, AZ

    Bureau of Land Management

    Alaska State Office                                Anchorage, AK
    Arizona State Office                               Phoenix, AZ*
    Bakersfield Field Office                           Bakersfield, CA*
    California Desert District                         Moreno Valley, CA*
    California State Office                            Sacramento, CA
    Carson City Field Office                           Carson City, NV


* Offices contacted only.



                                          27
    Colorado State Office                       Lakewood, CO
    Folsom Field Office                         Folsom, CA
    Grand Junction Field Office                 Grand Junction, CO
    Lands & Realty Group                        Washington, DC*
    Miles City Field Office                     Miles City, MT*
    Nevada State Office                         Reno, NV
    Rio Puerco Field Office                     Albuquerque, NM*
    Tucson Field Office                         Tucson, AZ
    Uncompahgre Field Office                    Montrose, CO
    Wyoming State Office                        Cheyenne, WY

    Fish and Wildlife Service

    Atchafalaya, National Wildlife Refuge       Lacombe, LA
    Delta National Wildlife Refuge              Venice, LA
    Division of Engineering                     Lakewood, CO
    Division of Environmental Quality           Arlington, VA
    J. Clark Salyer, National Wildlife Refuge   Upham, ND
    North Louisiana Refuge Complex              Farmerville, LA*
    Southeast Regional Office                   Atlanta, GA*
    Southwest Regional Office                   Albuquerque, NM*
    St. Catherine Creek Refuge                  Sibley, MS*
    Upper Souris, National Wildlife Refuge      Berthold, ND

    National Park Service

    Alaska Region                               Anchorage, AK
    Attorney Advisor's Office                   Boulder, CO
    Environmental Management Program Staff      Boulder, CO
    Gateway National Recreation Area            Staten Island, NY
    Grand Teton National Park                   Jackson's Hole, WY
    Intermountain Region                        Lakewood, CO
    Lassen Volcanic National Park               Mineral, CA
    Mojave National Preserve                    Barstow, CA
    Mt. Rainier National Park                   Ashford, WA
    Olympic National Park                       Port Angeles, WA
    Pacific West Region Office                  Oakland, CA*
    Valley Forge National Historic Park         Valley Forge, PA
    Whiskeytown National Recreation Area        Whiskeytown, CA
    Washington Office                           Washington, DC*
    Yellowstone National Park                   Yellowstone National Park,
                                                  WY
* Offices contacted only.




                                           28
    Office of Surface Mining

    Division of Technical Support                Washington, DC*

Indian Tribal Governments
    Navajo Environmental Protection Agency       Window Rock, AZ
    Pueblo of Acoma                              Acoma, NM

Local Governments

    Pima County Parks and Recreation             Tucson, AZ
    Tucson Unified School District               Tucson, AZ

Private Organizations
    National Tribal Environmental Council        Albuquerque, NM




* Offices contacted only.




                                            29
This Page Intentionally Left Blank




               30
                                                             Appendix 4



         OFFICE OF INSPECTOR GENERAL



                                 Catalyst for Improving the Environment


Evaluation Report




       EPA Practices for Identifying and
       Inventorying Hazardous Sites
       Could Assist Similar
       Department of the Interior Efforts
       Report No. 2005-P-00020

       August 22, 2005




                            31
Report Contributors:                Erin Barnes-Weaver
                                    Jennifer Dwyer
                                    Steven Textoris
                                    Carolyn Copper




Abbreviations

CERCLA       Comprehensive Environmental Response, Compensation, and Liability Act
CERCLIS      Comprehensive Environmental Response, Compensation, and Liability
             Information System
DOI          Department of the Interior
EPA          Environmental Protection Agency
HRS          Hazard Ranking System
IGCE         Independent Government Cost Estimate
NPL          National Priorities List
NFRAP        No Further Remedial Action Planned
OIG          Office of Inspector General
PA           Preliminary Assessment
RCRA         Resource Conservation and Recovery Act
RI/FS        Remedial Investigation/Feasibility Study
SI           Site Inspection




                                            32
                        U.S. Environmental Protection Agency                                                2005-P-00020
                        Office of Inspector General                                                        August 22, 2005




                        At a Glance
                                                                          Catalyst for Improving the Environment

Why We Did This Review             EPA Practices for Identifying and Inventorying Hazardous Sites
Recent audits criticized the       Could Assist Similar Department of the Interior Efforts
Department of the Interior for
weaknesses in its controls over        What We Found
environmental liabilities
resulting from hazardous           EPA has several mechanisms in place to discover new sites, including having
waste sites. For example, the      strong relationships with State offices to obtain new site information. EPA
Department has not developed       screens sites before including them in its inventory or priority list of sites requiring
policies or procedures for         further action. After identifying a site, EPA performs a preliminary assessment to
estimating environmental           determine the eligibility for a response action and to prioritize sites for further
liabilities, and does not have a   action. EPA also offers automated screening tools to assist regional staff in
prioritized list of cleanup        assessing and inspecting sites. EPA’s Hazard Ranking System scores sites based
activities. The Department         on the likelihood of release or potential release, the characteristics of site waste,
initiated an effort to develop a   and the people or sensitive environments affected by the release. Following
database to capture uniform        selection of the cleanup remedy, EPA uses a panel of experts to evaluate risks and
information for financial          establish funding priorities for new cleanups. EPA estimates changing project
reporting purposes.                costs throughout the process of prioritizing sites, and balances cost as one of
                                   several criteria to choose suitable cleanup options.
The Department of the Interior
Inspector General initiated an     The Department of the Interior, as a Federal land manager responsible for
audit to evaluate the              addressing hazardous sites on its lands, could apply several practices used by EPA
Department’s processes to          to ensure that the Department addresses its highest priority sites first, including:
identify, track, and prioritize
potential hazardous waste          Site Discovery
sites. Since, the
Environmental Protection           •     Consult existing site inventories and work with States, Tribes, and
Agency (EPA) has over                    communities to obtain information to identify potential sites.
20 years experience with           •     Develop and apply user-friendly checklists and templates to gather initial site
information systems and                  information and generate consistency in reports by bureau field staff.
processes to identify, assess,     •     Consult upcoming EPA guidance on preliminary assessments and site
prioritize, and cost estimate            inspections at Federal facilities, as well as a web-based hazardous waste
Superfund hazardous waste                compliance assistance center.
sites, we worked with the
Interior Department’s              Site Assessment and Prioritization
Inspector General to identify      •     Develop and apply automated tools to quickly assess sites and provide
relevant promising practices             uniformity. Consider EPA’s automated tools as a source of ideas.
for the Department to consider     •     Develop a risk-based prioritization method that ranks health risks and
to improve its processes.                considers land uses, ecological risks, and tribal factors.
For further information,
                                   •     Develop a tracking mechanism for sites the Department sets aside as not
contact our Office of                    requiring cleanup attention, and work with States, Tribes, and communities to
Congressional and Public                 stay aware of changing site conditions that warrant reprioritization.
Liaison at (202) 566-2391.
                                   Cost Estimating
To view the full report,
click on the following link:
                                   •     Create a web-based “cost estimating toolbox” as a one-stop resource for
                                         bureau field staff to document cost assumptions, and include EPA’s sources
www.epa.gov/oig/reports/2005/            of information on the costs associated with mining sites.
20050822-2005-P-00020.pdf          •     Frequently reevaluate and adjust cost estimates throughout cleanups.


                                                          33
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                                THE INSPECTOR GENERAL




MEMORANDUM

SUBJECT:              EPA Practices for Identifying and Inventorying Hazardous Sites
                      Could Assist Similar Department of the Interior Efforts
                      Report No. 2005-P-00020

TO:                   Thomas P. Dunne
                      Acting Assistant Administrator
                      Office of Solid Waste and Emergency Response


This memorandum transmits a final evaluation report entitled EPA Practices for Identifying and
Inventorying Hazardous Sites Could Assist Similar Department of the Interior Efforts conducted
by the Office of Inspector General (OIG) of the United States Environmental Protection Agency
(EPA). We conducted this work as part of a joint effort with the Department of the Interior
(DOI) OIG. DOI-OIG examined whether the Department has effective processes to identify and
prioritize hazardous waste sites on DOI land. Given EPA’s experience with related activities
through the Agency’s implementation of Superfund, we examined EPA’s process for identifying,
prioritizing, and tracking hazardous waste sites. Further, we identified several EPA practices
that could benefit DOI’s effort to inventory and assess hazardous sites.

We appreciate the cooperation and assistance provided by your staff in completing this work.
Our final report incorporates the majority of changes suggested in your January 27, 2005 official
comments. If you or your staff has any questions regarding this report, please contact me at
(202) 566-0847, or Kwai Chan, Assistant Inspector General for Program Evaluation, at
(202) 566-0827.


                                                            Nikki L. Tinsley

Attachment

cc:    Johnsie Webster, Audit Followup Coordinator, OSWER
       Kwai Chan, Assistant Inspector General for Program Evaluation, OIG



                                               34
Melissa Heist, Assistant Inspector General for Audit, OIG
Eileen McMahon, Assistant Inspector General for Congressional and Public
       Liaison, OIG
Michael Binder, Acting Assistant Inspector General for Planning, Analysis, and
       Results, OIG
Elizabeth Grossman, Deputy Assistant Inspector General for Program Evaluation,
       OIG
Carolyn Copper, Director for Program Evaluation, OIG




                                      35
                                       Table of Contents
At a Glance

 Introduction ..................................................................................................................                1

    Background ....................................................................................................................             1

    Purpose          .......................................................................................................................    1



 EPA’s Site Discovery, Assessment and Prioritization,
 and Cost Estimating Processes Under Superfund ..................................                                                               3

    Site Discovery ................................................................................................................             3

    Site Assessment and Prioritization ..............................................................................                           4

    Cost Estimating..............................................................................................................               6



 Promising Practices                        ...............................................................................................     8

    Promising Practices for the Department of the Interior .............................................                                        8


 Appendices

    A       Scope and Methodology.......................................................................................                       11

    B       EPA’s Site Discovery Process .............................................................................                         14

    C       EPA’s Site Assessment and Prioritization Process...........................................                                        22

    D       EPA’s Cost Estimating Process...........................................................................                           32

    E       Distribution ............................................................................................................          36




                                                                      36
                                   Introduction
Background
    Citizen concern over the extent of abandoned hazardous waste sites led Congress to pass
    the Comprehensive Environmental Response, Compensation, and Liability Act
    (CERCLA, or “Superfund”) in 1980 to locate, investigate, and clean up the worst sites
    nationwide. The Environmental Protection Agency (EPA) has over 20 years experience
    with information systems and processes to identify, assess, prioritize, and estimate costs
    of hazardous waste sites through the Agency’s implementation of the Superfund program.

    As part of accomplishing its objectives, EPA coordinates with other Federal land
    managers, such as the Department of the Interior (DOI). DOI manages one-fifth of the
    land mass in the United States, and DOI’s stewardship responsibilities include
    inventorying and assessing sites on its land that pose threats to human populations,
    wildlife, and sensitive environments. Recent financial audits criticized DOI for
    weaknesses in its controls over environmental liabilities resulting from hazardous waste
    sites. DOI’s Office of Inspector General (OIG) initiated an audit of DOI’s efforts to
    identify, track, and prioritize hazardous sites on its lands, and reviewed DOI’s efforts to
    develop a database for reporting financial liabilities.

    Given the maturity of EPA’s hazardous waste program and the Agency’s experience and
    lessons learned, we worked jointly with DOI-OIG to review and summarize EPA’s
    Superfund process and identify promising practices for DOI related to site discovery,
    assessment and prioritization, and cost estimating. While DOI does not seek to create its
    own Superfund program, similarities exist between EPA’s process of designating priority
    sites for Federal action and the processes DOI should use to identify, assess, and
    prioritize hazardous sites on its land. Like in EPA Regions, DOI field staff conduct
    initial site activities and prepare initial cost estimates.

Purpose

    DOI-OIG’s objective asked, “Does the Department have effective processes to identify,
    track, and prioritize hazardous sites?” EPA-OIG’s objective under this joint effort asked,
    “What is EPA’s process for identifying, prioritizing, and tracking hazardous waste sites,
    and what practices do EPA staff apply that could benefit DOI’s effort to inventory
    hazardous sites?”

    The body of the report contains summary information on EPA practices, as well as
    promising practices that DOI can use. The flowchart on page 2 depicts EPA’s Superfund
    process as well as the scope of our evaluation, and Appendix A provides additional
    details on our scope and methodology. Appendices B through D provide further details
    on EPA’s process, and include various website links that DOI and others may find useful.



                                              1
                                             37
2
38
 EPA’s Site Discovery, Assessment and Prioritization,
  and Cost Estimating Processes Under Superfund
Site Discovery
     The core of EPA’s Superfund process includes a system of prioritization that allows EPA
     to address the most dangerous sites and releases. Identifying abandoned or uncontrolled
     hazardous waste sites represents the first step in the process. EPA identifies sites through
     a variety of methods, including reviewing information provided by concerned citizens
     and records maintained by State and local agencies. States usually discover and report
     new sites to EPA. EPA regional staff conducts prescreening, often in conjunction with a
     State agency, to verify the presence of hazardous substances and evaluate whether the site
     falls under an existing EPA or State program. Citizens interested in referring a site may
     submit a formal petition available on EPA’s website. Regional Remedial Decision
     Teams meet monthly to discuss emergency removal sites, and the monthly discussions
     often include new site information.

     Regions screen new sites to assure that they place only appropriate sites into the
     Comprehensive Environmental Response, Compensation, and Liability Information
     System (CERCLIS), the Agency's database of sites that may require Federal cleanup
     action under Superfund. Pre-CERCLIS screening varies among Regions, but typically
     involves reviewing existing facility files at State agencies or county health departments,
     and conducting site visits to visually determine the proximity of sites to residential
     population centers and a site’s draining, fencing, and unique characteristics. Pre-
     CERCLIS screening helps determine whether a site warrants evaluation through the site
     assessment and priority listing process. While CERCLIS contains approximately 50,000
     sites, roughly 1,500 appear on EPA’s priority list for Superfund action. CERCLIS
     generates a one-page decision form that regional reviewers sign, date, and file.

     For Federal facilities, site discovery represents the date EPA formally adds the site to the
     Federal Agency Hazardous Waste Compliance Docket indicating the site requires Federal
     involvement. To document new Federal facility site information, Regions maintain pre-
     remedial file rooms that house CERCLIS decision forms, assessments, and other
     documents submitted by Federal facilities, such as required Resource Conservation and
     Recovery Act (RCRA) release notification forms for those agencies that generate,
     transport, treat, store, or dispose of hazardous waste.

     While EPA continues to discover new sites, its heavy reliance on States for site discovery
     information could lead to “blind spots.” To account for this limitation, EPA applies
     innovative target- and industry-based approaches to more proactively identify potential
     sites, such as by examining ground water sources and industrial sectors.

     See Appendix B for more information on site discovery.



                                              3
                                             39
Site Assessment and Prioritization
     When EPA identifies a site, it performs a preliminary assessment to distinguish between
     sites that pose little or no threat to human health and the environment and those that
     require further investigation. Preliminary assessments (PAs) and site inspections (SIs)
     identify sites qualified to enter the priority listing process. EPA scores sites for priority
     listing based on the likelihood of release or potential release, the characteristics of site
     waste, and the people or sensitive environments affected by the release. Once EPA
     designates a site as a priority for Federal action and funding, EPA conducts a remedial
     investigation to determine the nature and extent of contamination through sampling
     analysis and risk assessment. Specifically:

        •   The PA represents the first phase of the cleanup process following site discovery.
            Regions should attempt to complete PAs at non-Federal facility sites within 1 year
            of site discovery. Federal facility sites listed on EPA’s Federal Agency
            Hazardous Waste Compliance Docket must complete a PA within a “reasonable
            schedule” and submit the PA to EPA for review. While EPA requires certain
            information to complete a PA, the Agency recognizes the need for flexibility to
            tailor information gathering to site-specific needs.

        •   EPA’s determinations often require a more detailed SI. Investigators conducting
            SIs typically collect samples to determine the presence of hazardous substances.

     EPA encourages Regions to combine PA and SI activities, or conduct integrated
     assessments, to reduce costs and repetitive tasks. To assist other Federal agencies, EPA
     plans to issue succinct Federal facility PA and SI summary guides in early 2005, and
     launch a web-based Federal facilities compliance assistance center on hazardous site
     cleanup. While the PA and SI guides will not replace specific statutory requirements,
     they could serve as one-stop guides to assist other Federal agencies and help focus their
     site activities.

     The PA/SI process identifies sites qualified to enter the priority listing process and
     enables EPA to gather data needed to score the site according to the Hazard Ranking
     System (HRS). The HRS is a numerically-based screening system to assess the relative
     potential of sites to pose a threat to human health or the environment. Through HRS
     screening, EPA scores sites from 0 to 100 based on the likelihood that a site has released
     or has the potential to release contaminants into the environment, the characteristics of
     the waste, and the people or sensitive environments affected by the release. Sites with an
     HRS score of 28.5 or greater are eligible for EPA’s priority list of sites requiring action.

     EPA scores four pathways under the HRS: groundwater; surface water; soil exposure;
     and air migration. Site teams may use electronic scoring systems that provide user-
     friendly methods of documenting scores, minimizing mathematical scoring errors, and
     facilitating decision-making.




                                               4
                                               40
Once EPA designates a site as a priority for Federal action and funding, EPA conducts a
Remedial Investigation and Feasibility Study (RI/FS) to determine the nature and extent
of contamination through site characterization and risk assessment, and to determine
cleanup options. The RI serves as the mechanism for collecting data to:

   •   Characterize site conditions;
   •   Determine the nature of the waste;
   •   Assess risk to human health and the environment; and
   •   Conduct testing to evaluate the potential performance and cost of the treatment
       technologies under consideration.

The FS serves as the mechanism for the development, screening, and detailed evaluation
of alternative cleanup actions. EPA conducts the RI/FS process concurrently – RI data
influence the development of cleanup alternatives in the FS, which in turn affects the
scope of additional studies and field investigations. According to EPA, this phased
approach encourages the continual scoping of site characterization, minimizes the
collection of unnecessary data, and maximizes data quality. EPA requires a baseline risk
assessment for all listed sites that identifies the existing or potential risks that sites may
pose to human health and the environment. Because the baseline risk assessment
identifies the primary health and environmental threats at a site, it also provides valuable
input to the development and evaluation of alternatives during the FS.

Once EPA develops potential cleanup alternatives, the Agency screens certain options to
reduce the number of alternatives for analysis. EPA evaluates cleanup alternatives with
respect to nine criteria. EPA considers the first two criteria as “threshold” criteria; the
next five as “balancing” criteria; and the last two as “modifying” criteria. Specifically:

                        Nine Criteria for Evaluating Cleanup Alternatives

 Threshold         1. Overall protection of human health and the environment
 Criteria          2. Compliance with applicable or relevant and appropriate requirements

 Balancing         3.   Long-term effectiveness and permanence
 Criteria          4.   Reduction of toxicity, mobility, or volume
                   5.   Short-term effectiveness
                   6.   Implementability
                   7.   Cost

 Modifying         8. State acceptance
 Criteria          9. Community acceptance



EPA analyzes cleanup alternatives individually against each criterion and then compares
each alternative against the others to determine each alternative’s strengths and
weaknesses. After EPA selects a cleanup option for sites listed in the Superfund National
Priorities List (NPL), EPA’s National Risk-Based Priority Panel evaluates the risk posed
at listed sites to establish funding priorities for new cleanups. The Priority Panel applies



                                            5
                                           41
     five criteria and associated weighting factors to classify threats at a site and to compare
     sites based on common criteria. The five criteria are:

           Five Criteria for Classifying Threats
      1.   Risks to human population exposed
      2.   Contaminant stability
      3.   Contaminant characteristics
      4.   Threat to a significant environment
      5.   Program management considerations



     EPA also uses its National Remedy Review Board, comprised of Headquarters and
     regional staff, to review cleanup options to ensure consistency with hazardous waste
     regulations.

     See Appendix C for more information on site assessment and prioritization.


Cost Estimating
     Recognizing that unique and changing site circumstances require flexibility in estimating
     costs for cleanup, EPA estimates costs throughout the cleanup process. Very little cost
     estimating occurs during the site discovery phase; rather, EPA’s cost estimating process
     begins during the RI/FS phase, after EPA adds a site to its prioritized list for action but
     prior to actual cleanup. For most cost estimates developed during this phase, EPA relies
     on anecdotal and empirical data from past sites. Regional project managers do not
     document historic project costs; rather, they estimate initial costs and ask other site teams
     about their cost experiences.

     When selecting the most suitable cleanup option, EPA uses screening-level cost estimates
     to screen out disproportionately expensive alternatives. The screening process evaluates
     cleanup alternatives with respect to their effectiveness, implementability, and cost; EPA
     does not carry forward higher cost alternatives. Cost functions as one of five “balancing”
     criteria used to assess cleanup alternatives. While EPA balances the reasonableness of
     the cost when evaluating cleanup options, cost does not predominate over other factors,
     such as long-term reliability. EPA’s National Remedy Review Board helps to control
     response costs and promote nationally consistent and cost-effective cleanup decisions.
     This Board reviews proposed cleanup actions expected to cost more than $30 million
     ($75 million for Department of Energy sites with radioactive waste as the primary
     contaminant). The Agency estimates a +50% to -30% accuracy rate for cost estimates
     performed during EPA’s detailed analysis of cleanup alternatives. Once EPA completes
     the final cleanup design, cost estimate accuracy narrows to a +15% to -10% range, as
     costs still change along the tail end of the process.




                                                   6
                                                   42
When estimating the costs of cleanup options, EPA estimates technical and contractor
costs, and also estimates the construction costs necessary to implement the selected
cleanup option.

•   Technical and contractor costs: First, EPA estimates the costs of technical support
    through an Independent Government Cost Estimate (IGCE) conducted in-house by
    EPA staff for each work assignment at a site. Work assignments represent a specific
    step, or several steps, in EPA’s site prioritization process, such as PAs and SIs
    following site discovery, or work assignments pertaining to actual cleanups. The
    IGCE should represent a “fair and reasonable” cost of doing the work, and the IGCE
    provides the work assignment manager with information about how much it will cost
    for a contractor to complete a cleanup activity. Since most EPA Regions lack
    in-house cost estimators, EPA issued a memorandum in June 2004 to assist work
    assignment managers in the preparation of IGCEs. EPA also provides regional staff
    an Internet-based “Cost Estimating Toolbox” that includes guidance documents and
    worksheets to help project managers prepare site-specific IGCEs and document
    assumptions made in the preparation of cost estimates.

•   Construction costs: EPA conducts the second type of cost estimate after the Agency
    selects a cleanup option that meets statutory and regulatory requirements. EPA uses
    outside contractors to prepare detailed estimates of the cost to construct the selected
    cleanup action. Contractors base construction cost estimates on the type and
    quantities of labor, equipment, and materials required to perform the work. EPA
    recommends that its project managers obtain third-party review of construction cost
    estimates prior to advertising for bids. EPA documents each cost estimate for the
    different cleanup phases in CERCLIS. EPA participates in an interagency cost
    estimating workgroup comprised of other Federal agencies that, with the exception of
    EPA, have in-house cost estimating expertise.

See Appendix D for more information on cost estimating.




                                         7
                                        43
                               Promising Practices
Promising Practices for the Department of the Interior
Based on DOI-OIG’s audit findings and its assessment of DOI’s capacity to implement EPA’s
promising practices, we identified the following practical improvements for DOI’s effort to
inventory hazardous waste sites. The tables below show DOI-OIG audit findings and our
observations on areas for improvement on site discovery, site assessment and prioritization, and
cost estimating.


Site              DOI-OIG Audit Finding:
Discovery
                  DOI does not have a proactive process to identify hazardous waste sites. Audit work
                  conducted by the DOI-OIG team found that three of four bureaus lacked a proactive
                  site identification program and often only recorded sites after the public identified
                  them.
                  Promising Practices:
                  9   DOI should examine existing site inventories and work with States, Tribes, and
                      communities to obtain information to identify potential sites. Also, existing DOI
                      inspection programs (e.g., oil and gas; mining; natural resource damage
                      assessments) can likely generate new site information. Working with States and
                      communities would ensure that DOI utilizes local individuals who know the
                      contamination problems and geography of an area. DOI staff should consider
                      talking to community members – perhaps former employees of industries unique
                      to certain areas – who may have information about potential sites.
                  9   DOI should develop and apply user-friendly checklists and templates to gather
                      initial site information and generate consistency among field staff. DOI should
                      consider EPA’s checklists and templates as a source of ideas for developing its
                      own forms. Samples of EPA templates include Internet-based public petitions for
                      new site information, and site screening checklists and decision forms.
                  9   DOI should examine upcoming EPA guidance, including succinct guides on PAs
                      and SIs, and a web-based hazardous waste compliance assistance center for
                      Federal facilities, as DOI develops its own procedures to ensure the procedures
                      meet minimum requirements for PAs and SIs at Federal facilities.
                      See http://www.epa.gov/compliance/about/offices/ffeo.html.




                                                  8
                                                  44
Site             DOI-OIG Audit Finding:
Assessment       DOI does not have a proactive process to evaluate the risks posed by hazardous
and              waste sites to human health, wildlife, and the environment. The Department does not
Prioritization   prioritize and rank all of its hazardous waste sites. The four DOI bureaus audited
                 maintain some information regarding prioritization of hazardous waste sites on bureau
                 land, but the information is not complete or comparable. The DOI-OIG team found
                 that bureaus developed varying methods for establishing priorities and making funding
                 decisions for contaminated site mitigation.
                 Promising Practices:
                 9   DOI should develop and apply easy-to-follow automated tools to quickly assess
                     potential sites and provide uniformity across bureaus. DOI should consider
                     EPA’s automated tools as a source of ideas. EPA’s automated tools include:
                     •    HRS Superscreen – Allows users to enter and evaluate site-specific
                          information, including sampling data, waste quantities, physical parameters,
                          and target data; enter descriptive narrative text and reference citations; and
                          select specific HRS factor values.
                     •    HRS Quickscore – Provides users pathway and site score calculations;
                          HRS score sheet preparation and printing; identification of data gaps; and
                          scratchpad capability for note-taking.
                 9   DOI should develop a risk-based method to prioritize sites and apply an
                     approach that ranks sites based on current and future land uses, ecological risks,
                     and tribal factors/cultural considerations.
                     •    DOI sites on Bureau of Indian Affairs land should focus on ecological risks
                          such as food chain contamination, bioaccumulation, and fish
                          consumption/utilization for tribal cultures.
                     •    DOI should consider obtaining site assessment information from States and
                          Tribes regarding sites DOI holds in trust.
                 9   DOI should develop a tracking mechanism for sites DOI sets aside as not
                     requiring cleanup attention. DOI should work with States, Tribes, and
                     communities to stay aware of changing site conditions that warrant
                     reprioritization of already screened sites.




                                                 9
                                                45
Cost         DOI-OIG Audit Finding:
Estimating   Four DOI bureaus did not adequately support cost estimates for 108 of the 125 (or
             86 percent) site files reviewed. Some bureaus reported estimates that officials could
             not explain. Additionally, for the 125 site files evaluated by the DOI-OIG team, 103
             (or 82 percent) did not have supporting documentation to justify the financial liability
             code selected. As a result, DOI and its bureaus may not have reliable data for
             management purposes or financial reporting.
             Promising Practices:
             9    DOI should create a web-based “cost estimating toolbox” as a one-stop resource
                  of guidance and worksheets for staff to document assumptions. This could
                  include EPA’s information on the costs and environmental liabilities related to
                  mining.
             9    DOI should reevaluate and adjust cost estimates at each stage of the cleanup
                  process. Cost estimating should include flexibility to account for uncertainty in
                  changing site conditions between discovery and actual cleanup. DOI’s cost
                  estimating process should include a feedback loop to adjust the first round of
                  cost estimates.




                                              10
                                              46
                                                                                                Appendix A

                               Scope and Methodology

In collaboration with the DOI-OIG, we summarized EPA’s process of discovering, assessing,
and prioritizing hazardous waste sites for cleanup to identify promising practices for DOI’s effort
to inventory hazardous sites on land it manages. We conducted our evaluation of EPA’s
Superfund remedial program (we omitted from our scope processes related to EPA’s emergency
removal program) between April 2004 and December 2004. We performed our evaluation in
accordance with Government Auditing Standards issued by the Comptroller General of the
United States.

Evaluation Methodology

To gain an understanding of EPA’s Superfund site discovery, site assessment and prioritization,
and cost estimating processes, and to identify promising practices for DOI, we reviewed policies
and guidance documents available on EPA’s Superfund website, including:


    Preliminary Assessment and Site Inspection              “Introduction to the HRS” and the “HRS Toolbox”
     Information
    Site Assessment Fact Sheets                             HRS Superscreen and Quickscore
    Quick Reference Guidance “Improving Site                Quick Reference Fact Sheet “The Revised
     Assessment: Abbreviated Preliminary                      Hazardous Ranking System Qs and As”
     Assessments” (October 1999)                              (November 1990)
    Quick Reference Guidance “Improving Site                January 9, 1996 Memorandum on “Remedial
     Assessment: Combined PA/SI Assessments”                  Action Priority Setting”
     (October 1999)
    Risk Assessment Task Force Staff Paper                  Superfund Hotline Training Module “Introduction
     “An Examination of EPA Risk Assessment                   to: The Superfund Response Process” (updated
     Principles and Practices” (March 2004)                   February 1998)
    Role of the Baseline Risk Assessment in                 Superfund Program Implementation Manual:
     Superfund Remedy Selection Decisions                     Fiscal Year 2004/2005 (April 7, 2003)
     (April 22, 1991)
    Overview of the National Risk-Based Priority            Remedial Investigation and Feasibility Study
     Panel                                                    Information
    A Guide to Developing and Documenting                   Fact Sheet “The Role of Cost in the Superfund
     Cost Estimates During the Feasibility Study              Remedy Selection Process” (September 10,
     (July 2000)                                              1996)
    Superfund: Building on the Past, Looking to             Memorandum “Cost Estimating Resources for the
     the Future (“120-Day Study”) (April 22, 2004)            Superfund Program” (June 1, 2004)
    Superfund Reforms Initiative




                                                     11
                                                     47
We conducted literature searches on EPA and DOI hazardous waste activities and related
promising practices. We reviewed prior audits and evaluations on each agency’s hazardous
waste programs written by our office and the Government Accountability Office, as well as
reports written by:

    Resources for the Future                                    Environmental Law Institute
    National Advisory Council for Environmental                 Association of State and Territorial Solid Waste
     Policy and Technology                                        Management Officials




We interviewed officials from EPA Headquarters and regional offices for policy implementation
information and to identify promising practices for DOI. In Headquarters, we met with:

    Associate Chiefs with EPA’s lead office for managing the Superfund program and for providing regional
     support from site discovery through site prioritization
    Two members, including the Chairperson, of EPA’s National Risk-Based Priority Panel responsible for
     prioritizing new site funding based on the risks posed by sites
    Directors of EPA’s offices responsible for restoration, reuse, enforcement, and compliance at Federal facility
     hazardous waste sites
    Member of EPA’s Environmental Response Team responsible for ecological risk assessment
    Two members of EPA’s National Remedy Review Board that reviews cleanup options, helps control costs,
     and promotes consistent and cost-effective cleanup decisions
    Contract Manager and U.S. Army Corps of Engineers Liaison within EPA’s lead Superfund office
    Staff responsible for science policy within EPA’s lead Superfund office
    Chief overseeing EPA’s automated inventory of hazardous waste sites




To obtain a regional perspective of Superfund implementation and identify practices relevant for
the DOI field staff who conduct hazardous site activities, we interviewed staff in Regions 2, 8, 9,
and 10 responsible for initial site discovery; site assessment and risk assessment; HRS scoring
and the NPL process; and Federal facilities coordination. We judgmentally selected Regions 2,
8, 9, and 10 based on discussions with EPA staff. We also met with one of the co-chairs of
EPA’s National Mining Team, who described the team’s involvement with DOI.

Limitations

We did not comprehensively evaluate EPA’s Superfund program implementation; rather, we
identified useful practices – if implemented effectively – for DOI’s effort to inventory hazardous
waste sites on land the Department manages. Because we could not determine whether the
Superfund processes described in our report work exceptionally well or are widely recognized
over other approaches, we refer to them as promising practices rather than best practices.




                                                         12
                                                         48
DOI-OIG Work

Concurrent with our evaluation, DOI-OIG staff audited DOI’s processes to identify, track, and
prioritize hazardous sites. DOI-OIG identified and evaluated the policies and procedures used by
DOI and its bureaus to inventory and prioritize hazardous sites. DOI-OIG also conducted field
visits to evaluate supporting documentation for reported financial liability codes and cost
estimates for hazardous sites. DOI-OIG interviewed officials at the Department and bureau
levels, and at field and regional offices. DOI-OIG attempted to reconcile the Department’s list
of contaminated sites to the Federal Agency Hazardous Waste Compliance Docket, maintained
by EPA, to determine whether the Docket contained sites that the bureaus had not reported to the
Department. DOI-OIG conducted its review from February 2004 to March 2005. DOI-OIG
used fiscal 2003 data as the baseline for its review. The scope of DOI-OIG’s audit covered
Federal lands under the management of the Department and excluded physical hazards, currently
operating sanitary landfills, transportation, storing, and handling of hazardous materials, current
operations at Department facilities, and identification of actual or potential contamination on
lands newly acquired or to be acquired.




                                                13
                                                49
                                                                                     Appendix B

                      EPA’s Site Discovery Process
EPA has several mechanisms in place to discover new hazardous waste sites. EPA’s
relationships with both State officials and regional Remedial Decision Teams have proven useful
in obtaining new site information. Consistent definitions of “hazardous substances” helps EPA
staff communicate with these groups to obtain information on new sites that might pose a threat
to human health or the environment. EPA extensively screens new sites before including them in
the Agency’s automated inventory and priority list of sites that require further Federal action.
EPA’s screening efforts include coordinating with other EPA and State program offices to
determine their level of awareness and activity at a certain facility. EPA also applies automated
screening tools and templates to assist regional staff in assessing and inspecting sites for further
action. Additionally, regional EPA offices apply innovative approaches to identifying hazardous
waste sites in certain industrial sectors.

Hazardous wastes and substances addressed by EPA possess at least one of the following four
characteristics: ignitability, corrosivity, reactivity, or toxicity. The core of EPA’s process to
assess sites for Federal action includes a system of identification and prioritization that allows
EPA to address the most dangerous sites and releases. Identifying abandoned or uncontrolled
hazardous waste sites represents the first step in the process. EPA identifies sites through a
variety of methods, including reviewing information provided by concerned citizens and records
maintained by State and local agencies, such as facility bankruptcy filings with county tax
assessor’s offices, and insurance maps that show historical site information. Hazardous waste
regulations require facilities to report releases of certain chemicals and provide information
about hazardous substances used at facilities. EPA may discover releases of hazardous
substances through various means, including:

       Mandatory notification under CERCLA §103(a) or (c);
       CERCLA §104(e) investigations for “information gathering and access” if there is a
        “reasonable basis to believe there may be a release or threat of release of a hazardous
        substance or pollutant or contaminant”;
       Required RCRA §3005 and §3010 release notification, which mandates that any person
        generating, transporting, treating, storing, or disposing of hazardous waste notify EPA
        and describe the location, site activities, and hazardous waste handled at the facility;
       Inventory efforts or random observation by government agencies;
       Formal citizen petitions pursuant to 40 Code of Federal Regulations §300.420(b)(5),
        which reads, “Any person may petition the lead Federal agency to perform a preliminary
        assessment of a release when such person is, or may be, affected by a release of a
        hazardous substance, pollutant, or contaminant. Such petitions shall be addressed to the
        EPA Regional Administrator for the Region in which the release is located, except that
        petitions for preliminary assessments involving Federal facilities should be addressed to
        the head of the appropriate Federal agency”;
       Review of State and Federal records to determine whether facilities fall under other
        environmental programs such as RCRA; and
       Informal community observation and notification.

                                                14
                                                50
Among all of these methods, States usually discover and report new site information to EPA.
State hazardous waste site inventory lists have proven helpful for EPA’s site discovery efforts.
EPA regional staff conducts prescreening, often in conjunction with a State agency, to verify the
presence of hazardous waste substances and to evaluate whether an existing EPA or State
program covers the site. According to regional EPA staff, the Agency rarely receives new site
information through informal referrals; rather, those citizens interested in referring a site may
submit a formal petition available on the Agency’s website and included as Example B-1 in this
appendix. For example, Region 10 receives about 3 to 4 citizen petitions a year, although 1
petition can pertain to multiple sites (we noted 1 petition that pertained to 10 sites).
Additionally, regional Remedial Decision Teams meet monthly to discuss emergency removal
sites and often the monthly discussions include new site information. For example, Region 10
uses Remedial Decision Teams to decide how to proceed with a particularly sensitive site after
regional staff internally review State reports on new sites. Region 9 applies an approach similar
to the Remedial Decision Team meetings utilized in Regions 2, 8, and 10. As part of cooperative
agreements, Region 9 staff meet with representatives from States and Tribes at least three times a
year to discuss work plans, emerging high priority sites, and what programs would best address
new sites.

Regions screen new sites to assure that they place only appropriate sites into the Comprehensive
Environmental Response, Compensation, and Liability Information System (CERCLIS), the
Agency's database of sites that may require Federal cleanup action. Pre-CERCLIS screening
varies from Region to Region but typically involves reviewing existing facility files at State
agencies or county health departments, and conducting site visits to visually determine the
proximity of the site to residential population centers and the site’s draining, fencing, and unique
characteristics. Region 2 has found it useful to have its States complete the “NPL Data
Characteristics Form” – a qualitative questionnaire created electronically through HRS
Superscreen (available on EPA’s site assessment web page) and included as Example B-2.
HRS Superscreen provides a user-friendly, Windows-based method to facilitate site inspection
reporting and decision-making. Often, Region 8 staff will collect topsoil samples as part of
pre-CERCLIS screening, and one State in Region 8 prepares a pre-CERCLIS screening report
complete with a site decision-making form, included as Example B-3. In Region 9, States and
Tribes complete pre-CERCLIS screening checklists and submit the checklists to Region 9 staff
as deliverables under cooperative agreements. Two Region 10 States (Oregon and Washington)
complete site screening forms that include strategy recommendations for how best to address the
site, and Oregon also uses a site assessment prioritization system to assess and score site threats.

Pre-CERCLIS screening helps EPA determine whether a site qualifies for a response action
under Superfund and warrants evaluation through the site assessment and priority listing process.
Prior to conducting pre-CERCLIS screening, EPA previously entered all sites – including
emergency removals – into CERCLIS. According to EPA staff, States now attach the stigma
previously associated with the Agency’s priority list with listing sites in CERCLIS and the
Federal Agency Hazardous Waste Compliance Docket. While EPA’s CERCLIS inventory
contains approximately 50,000 sites, roughly 1,500 sites appear on the Agency’s priority list for
Federal action.




                                                 15
                                                 51
EPA requires that CERCLIS data comply with standards established by the Environmental Data
Standards Council. The Council develops environmental data standards to promote the exchange
of information among EPA, States, and Tribes. The Council creates documented agreements on
representations, formats, and definitions of common data. The Council intends the data
standards to improve the quality and share-ability of environmental data by increasing data
compatibility, improving the consistency and efficiency of data collection, and reducing data
redundancy by providing a “common vocabulary” for all interested stakeholders. EPA requires
that any data submitted to the Agency comply with these standards.

For non-Federal facilities, the site discovery date in CERCLIS represents the date EPA regional
staff complete pre-CERCLIS screening activities and documents the decision that the site
warrants assessment and potential listing and cleanup attention. In addition to CERCLIS data
entry, Region 2 documents new site information in a “Superfund New Site Assignment Form”
(see Example B-4). One Region uses contractors to enter new site information into CERLCIS,
while another has site assessment managers enter initial site discovery information into
CERCLIS. CERCLIS generates a one-page printed decision form that regional reviewers sign,
date, and file. For Federal facilities, the site discovery date represents the date EPA formally
adds the site to the Federal Agency Hazardous Waste Compliance Docket indicating that the site
requires Federal involvement. To document new Federal facility site information, Regions
maintain pre-remedial file rooms that house CERCLIS decision forms, preliminary assessments,
and other documents submitted by Federal facilities, such as required RCRA and CERCLA
release notification forms for those Federal agencies that generate, transport, treat, store, or
dispose of hazardous waste.

EPA continues to discover new sites; however, EPA’s heavy reliance on States for site discovery
information could lead to “blind spots.” To account for this limitation, EPA Regions apply
innovative target- and industry-based approaches to identifying new hazardous waste sites. For
example, Regions 2 and 9 apply target-based approaches where they begin by sampling drinking
water supplies or contaminated groundwater plumes and backtrack to locate the facility or source
of contamination. This unique approach differs from the usual practice of tracking
contamination from the source facility to the point of eventual release. Regions 2 and 8 also
utilize industry-based site discovery programs that focus on certain industrial sectors. For
example, one Region 8 State identifies potential sites by tracking groundwater releases of
volatile organic compounds from the dry cleaning sector. Region 9 has site discovery initiatives
on perchlorate, as well as vapor intrusion into homes from contaminated soils. One Region 10
State reviews lists and maps of impaired waters, applies overlay maps to identify industrial
sectors, conducts sampling, and backtracks to identify sources of contamination.




                                               16
                                               52
Example B-1




    17
    53
                                     Example B-2


“NPL Data Characteristics Form” from HRS Superscreen




                                          18
                                          54
Example B-3




    19
    55
20
56
Example B-4




    21
    57
                                                                                      Appendix C

    EPA’s Site Assessment and Prioritization Process
EPA evaluates the release of hazardous substances from a site through various steps in the
cleanup process. When EPA identifies a site, EPA performs a preliminary assessment to
distinguish between sites that pose little or no threat to human health and the environment and
sites that require further investigation. Preliminary assessments (PAs) and site inspections (SIs)
identify sites qualified to enter the priority listing process and provide the data needed for
scoring according to EPA’s Hazard Ranking System. EPA scores sites based on the likelihood
of release or potential release, the characteristics of site waste, and the people or sensitive
environments affected by the release. EPA uses a panel of experts to evaluate risks at sites on
the Agency’s priority list and to establish funding priorities for new cleanups. Once EPA
designates a site as a priority for Federal action and funding, EPA conducts a remedial
investigation to determine the nature and extent of contamination through sampling analysis and
risk assessment.

EPA’s formal site assessment process begins when the Agency first enters information about a
release or potential release into its national inventory of hazardous waste sites, and continues
through PAs, SIs, removal actions, and other activities. EPA’s site assessment process ends
either when the Agency determines No Further Remedial Action Planned (NFRAP), at which
point site assessment stops and EPA archives site information, or when EPA decides to propose a
site for listing on the National Priorities List (NPL), at which point the site assessment phase
ends and the listing process begins. EPA does not track sites the Agency codes as “NFRAP”;
rather, those sites fall to the responsibility of State agencies, and EPA places the onus on States
to alert EPA to new information that can change the “NFRAP” status. Each of the following
steps helps the Agency assess and prioritize hazardous waste sites. Throughout the process, EPA
uses its community involvement program, as appropriate, to advocate and strengthen early and
meaningful community participation during cleanups.

Preliminary Assessment/Site Inspection (PA/SI)

The PA represents the first phase of the site assessment process following site discovery.
Regions should attempt to complete PAs at non-Federal facility sites within 1 year of site
discovery. Regions usually conduct an abbreviated PA for sites entered into the CERCLIS
inventory via site discovery at which no work has started and, based on limited review, do not
warrant any type of additional activity. PAs consist of limited-scope investigations of readily
available information about a site and its surrounding area. PAs generally include a review of
Federal, State, and local government files, including facility bankruptcy documents, county tax
assessor’s records, permits required under RCRA, insurance maps with historic site information,
and geological and hydrological data. Although not required, the process may include site visits
to observe characteristics such as drainage patterns and proximity to residences, and institutional
controls such as fencing.

According to EPA regional staff, while EPA requires certain information to complete a PA, the
Agency recognizes the need for flexibility in the process to tailor information gathering to site-

                                                22
                                                58
specific needs. Often, regional EPA staff will conduct an abbreviated preliminary assessment
when regional staffs have enough information to decide whether the site warrants further Federal
action. Abbreviated preliminary assessments use the same information as the conventional PA
approach, but rely on the professional judgment and past site assessment experience of regional
staff to make decisions at earlier stages of the process.

To determine the types of threats the site might pose, EPA staff conduct detailed reviews or SIs.
The SI process provides the data needed to score sites through the Hazard Ranking System
(HRS) and identify potential sites for EPA’s priority list of sites requiring Federal action and
funding. SI investigators typically collect environmental release and potential source samples to
determine the presence or migration of hazardous substances. Investigators conduct SIs in one
stage or two. The first stage, or focused SI, tests hypotheses developed during the PA and can
yield information sufficient to prepare an HRS scoring package. If investigators require further
information to document an HRS score, they move to the second stage and conduct an expanded
SI. EPA encourages Regions to combine PA and SI activities, or conduct integrated
assessments, to reduce costs and repetitive tasks. Region 8 performs integrated assessments on a
case-by-case basis for those sites that pose time-critical threats to nearby populations. Under
cooperative agreements, Region 9 staff collectively work with States and Tribes to decide
whether a site requires further assessment based on any indications that a release could impact
human populations or sensitive environments. Region 9 staff said that Tribal cultural values
often come into play when assessing sites, particularly with new routes of exposure not typically
expected in suburban environments.

To assist the PA and SI efforts at other Federal agencies, EPA plans to issue succinct PA and SI
summary guides specific to Federal facilities in early 2005, as well as launch a web-based
Federal facilities compliance assistance center on hazardous site cleanup. While the PA and SI
guides will not replace specific statutory requirements, they could serve as one-stop guides to
assist other Federal agencies and help focus their site activities. Also, EPA conducts an annual
national site assessment symposium as a forum for EPA, States, Tribes, and other Federal
agencies to discuss recent and pending changes in legislation, funding, policies, and guidance.
Speakers representing a broad site assessment spectrum share ideas and expertise on how to
address evolving site assessment needs.

HRS Scoring

EPA applies information collected during the PA/SI process to calculate an HRS score, and EPA
uses HRS scoring as the principal mechanism to place uncontrolled waste sites on its priority list
for funding and action. The HRS consists of a numerically based screening system to assess the
relative potential of sites to pose a threat to human health or the environment. The HRS assigns
each site a score ranging from 0 to100 based on: the likelihood that a site has released or has the
potential to release contaminants into the environment; the characteristics of the waste; and the
people or sensitive environments affected by the release. Though not a risk assessment tool, the
HRS uses a structured approach to assign numerical values to risk-based factors and conditions.
EPA scores four pathways under the HRS:




                                                23
                                                59
   1.   Groundwater migration (drinking water);
   2.   Surface water migration (drinking water, human food chain, sensitive environments);
   3.   Soil exposure (resident population, nearby population, sensitive environments); and
   4.   Air migration (population, sensitive environments).

After calculating scores for one or more pathways, EPA combines the scores into an overall site
score. Sites with an HRS score of 28.5 or greater are eligible for EPA’s priority list of sites
requiring Federal action. Site teams may use electronic scoring systems, such as HRS
Superscreen and Quickscore, to calculate scores. Both systems provide user-friendly, electronic
methods of documenting site scores, minimizing mathematical scoring errors, and facilitating
decision-making. HRS Superscreen allows users to: enter and evaluate site-specific information,
including sampling data, waste quantities, physical parameters, and target data; enter descriptive
narrative text and reference citations; and select specific HRS factor values. Similar key
functions in Quickscore include: pathway and site score calculations; HRS score sheet
preparation and printing; easy identification of data gaps in a conceptual site model; and
scratchpad capability for note-taking.

If all HRS pathways score low, the site scores low. However, the site can score relatively high
even if only one pathway scores high. This demonstrates an important consideration for HRS
scoring because some extremely dangerous sites pose threats through only one pathway. Also,
HRS scores do not determine funding priorities because the information collected to develop
HRS scores cannot sufficiently determine either the extent of contamination or the appropriate
cleanup response for a particular site. Furthermore, the sites with the highest HRS scores do not
necessarily come to EPA's attention first – this would require stopping work at sites with already
underway cleanup actions. EPA relies on more detailed studies in the Remedial
Investigation/Feasibility Study (RI/FS) process that typically follows site listing.

Remedial Investigation/Feasibility Study (RI/FS)

The RI/FS phase determines the nature and extent of contamination, and EPA performs an RI/FS
after designating a site as a priority for Federal funding and action. The RI serves as the
mechanism for collecting data to:

   •    Characterize site conditions;
   •    Determine the nature of the waste;
   •    Assess risk to human health and the environment; and
   •    Conduct testing to evaluate the potential performance and cost of the treatment
        technologies under consideration.

The FS serves as the mechanism for the development, screening, and detailed evaluation of
alternative cleanup actions. EPA conducts the RI/FS process concurrently – data collected in the
RI influence the development of cleanup alternatives in the FS, which in turn affects the scope of
additional studies and field investigations. According to EPA, this phased approach encourages
the continual scoping of site characterization, minimizes the collection of unnecessary data, and
maximizes data quality. The RI/FS process includes the following phases: scoping, site



                                                24
                                                60
characterization, development and screening of cleanup options, treatability investigations, and
detailed analysis.

       Scoping

       Scoping represents the initial planning phase of the RI/FS process, and EPA refines many
       of the planning steps begun during the scoping in later phases of the RI/FS. Scoping
       activities typically begin with the collection of existing site data, including data from
       previous investigations such as the PA/SI. On the basis of this information, EPA
       undertakes site management planning to: preliminarily identify boundaries of the study
       area; identify likely cleanup objectives and whether interim actions may be necessary or
       appropriate; and establish whether to address the site as one of several separate operable
       units. Once EPA agrees on an overall management strategy, EPA plans the RI/FS for a
       specific operable unit or the site as a whole. Typical scoping activities include: initiating
       the identification and discussion of potential Applicable or Relevant and Appropriate
       Requirements with the support agency; determining the types of decisions to make and
       the data needed to support these decisions; assembling a technical advisory committee to
       assist in activities, serve as a review board for important deliverables, and monitor
       progress during the study; and preparing the work plan, sampling and analysis plan,
       health and safety plan, and community relations plan.

       Site Characterization

       EPA initiates field sampling and laboratory analysis during the site characterization phase
       of the RI/FS. Preliminary site characterization summaries provide the lead agency with
       information early in the process before preparation of the full RI report. The summary
       helps determine the feasibility of potential technologies and assists both the lead and
       support agencies with the initial identification of applicable or relevant and appropriate
       requirements.

       According to regional EPA staff, the Agency’s site prioritization follows a risk-based
       process. EPA applies its Risk Assessment Guidance to develop electronic templates of
       standard risk assessment data reporting tables that provide clear, consistent, and
       transparent risk data presentations. The electronically transferred tables provide the
       summary-level risk data that EPA staff must enter into its automated inventory of
       hazardous waste sites. EPA requires a baseline risk assessment for all listed sites that
       identifies the existing or potential risks that sites may pose to human health and the
       environment.

       Three types of risks may require site cleanups: human health cancer risks; human health
       non-cancer risks; or ecological risks. Because the baseline risk assessment identifies the
       primary health and environmental threats at a site, it also provides valuable input to the
       development and evaluation of alternatives during the FS. EPA uses the 1x10-6 (one in a
       million) to 1x10-4 (1 in ten thousand) cancer risk range as a “target range” to manage
       cleanup risks and as an acceptable risk range for cleanup levels. For human health
       threats, where the baseline risk assessment indicates that the lifetime cancer risk range to


                                                25
                                                61
        an individual for either current or future land use exceeds 1x10-4, the site generally
        warrants further Federal action. Once EPA decides to commence cleanup action, the
        Agency has expressed a preference for cleanups achieving the more protective end of the
        risk range (i.e., 1x10-6). Site cleanup must also protect against non-cancer risks or
        threats, and generally should not result in a Hazard Index1 greater than one. To justify
        site action based upon ecological concerns, an ecological risk assessment must establish
        that an actual or potential ecological threat exists at a site. Ecological risk assessments
        can have their greatest influence on risk management at a site in the evaluation and
        selection of cleanup options.

        Development and Screening of Cleanup Options

        This phase usually begins during scoping when EPA may first identify likely cleanup
        scenarios. Developing cleanup options requires:

             •   Identifying objectives;
             •   Identifying potential treatment technologies that will satisfy the objectives;
             •   Screening technologies based on effectiveness, implementability, and cost; and
             •   Assembling technologies into alternatives for the site or operable unit.

        EPA can develop cleanup options to address a contaminated medium, a specific area of
        the site, or the entire site. Once EPA develops potential cleanup alternatives, the Agency
        screens certain options to reduce the number of alternatives for analysis. EPA usually
        conducts the screening process on a general basis and with limited resources because of
        the lack of complete information necessary to fully evaluate cleanup options at this point
        in the process. The FS evaluates the risks in the absence of cleanup actions to provide a
        baseline for comparison with other alternatives.

        Treatability Investigations

        EPA conducts treatability investigations primarily to: provide sufficient data to allow for
        the full development and evaluation of treatment alternatives during the detailed analysis
        phase; support the design of selected cleanup options; and reduce cost and performance
        uncertainties for treatment alternatives to acceptable levels so that EPA can select an
        option.

        Detailed Analysis

        During this phase, EPA evaluates cleanup alternatives with respect to nine criteria that
        the Agency developed to address statutory requirements. EPA considers the first two
        criteria as “threshold” criteria; the next five as “balancing” criteria; and the last two as
        “modifying” criteria. Specifically:

1
 EPA defines the Hazard Index as the ratio of the exposure level to the referenced, acceptable daily long-term dose
from exposure to contaminants at the site.



                                                         26
                                                        62
                                Nine Criteria for Evaluating Cleanup Alternatives

        Threshold          1. Overall protection of human health and the environment
        Criteria           2. Compliance with applicable or relevant and appropriate requirements

        Balancing          3.   Long-term effectiveness and permanence
        Criteria           4.   Reduction of toxicity, mobility, or volume
                           5.   Short-term effectiveness
                           6.   Implementability
                           7.   Cost

        Modifying          8. State acceptance
        Criteria           9. Community acceptance



       EPA analyzes cleanup alternatives individually against each criterion and then compares
       each alternative against one another to determine their respective strengths and
       weaknesses. EPA also uses its National Remedy Review Board, comprised of
       Headquarters and regional staff, to review cleanup options to ensure consistency with
       hazardous waste regulations. The results of this process help the Agency select an
       appropriate cleanup option.

Record of Decision

EPA creates the Record of Decision from information generated during the RI/FS, and the
Record of Decision functions as a public document that explains which cleanup options EPA
selected for a site. The Record of Decision includes a table listing the final cleanup goals and the
corresponding risk level for each chemical of concern.

Design and Implementation of Cleanup Action

Based on specifications described in the Record of Decision, EPA designs the technical
specifications for cleanup options and technologies during this phase, followed by the actual
construction or implementation phase of site cleanup.

Designating Priority Sites for Federal Funding and Action

EPA designates priority sites for Federal funding and action upon completion of HRS scoring
and after EPA addresses public comments on proposed sites to ensure that EPA allocates scarce
resources to the sites posing the most risk to human health and the environment. EPA’s National
Risk-Based Priority Panel evaluates the risk posed at listed sites to establish funding priorities for
new cleanup construction projects. This system allows for an evaluation of projects based on:
protection of human health; protection from significant environmental threats; and protection
against potential human health or environmental threats based upon current site conditions. The
panel meets during the course of the year as needed to prioritize new projects. EPA regional
staff complete and submit site forms to the Priority Panel for scoring, and Example C-1 includes
a copy of a blank Priority Panel form.



                                                    27
                                                   63
The Priority Panel applies five criteria and associated weighting factors to classify threats that
contaminants may pose at a site. The Panel then applies the criteria and associated weighting
factors to compare sites based on common criteria. The five criteria are:

             Five Criteria for Classifying Threats
        1.   Risks to human population exposed
        2.   Contaminant stability
        3.   Contaminant characteristics
        4.   Threat to a significant environment
        5.   Program management considerations



The Panel ranks each criterion on a scale of one to five. The highest score for any criterion is
five, representing a current risk-current exposure scenario posing risk to human health and the
environment. The lowest score for any factor is one, representing a future risk-future exposure.
EPA multiplies the raw score by the weight factor for each criterion as follows, with a maximum
possible score of 100:


                                                                   Raw Score            Weight    = Maximum
                                Criteria                             Range          x   Factor   Total Score *

        Risk to human population exposed: population size,            1-5           x     5           25
        proximity to contaminants, and likelihood of exposure.
        Stability: mobility of contaminants, site structure, and      1-5           x     5           25
        effectiveness of any institutional or physical controls.
        Contaminant characteristics: concentration, toxicity,         1-5           x     3           15
        and volume.
        Threat to a significant environment: endangered               1-5           x     3           15
        species or their critical habitats, and sensitive
        environmental areas.
        Program management considerations: innovative                 1-5           x     4           20
        technologies, cost delays, high profile projects,
        environmental justice, State involvement, and
        Brownfields/economic redevelopment.

             Maximum total project score                                                             100

        * We multiplied the weight factor by the high end of the raw score range.




                                                         28
                                                         64
                                            Exhibit C-1

                             Superfund Response Action Priority Form

Regional Site Priority:                        Region: _________________________________
Site Name:
CERCLIS ID:                                    NPL Status: ______________________________


Site Location
City: ____________________________             State: ___________________________________
Cong. District: ____________________


Action
___Remedial, or                                     OU#:                   .
___Time Critical Removal (NPL/Non-NPL)
___Non-Time Critical Removal (NPL/Non-NPL)
First, Subsequent, or Final Action for site: __________________________________________
If this is a final action, will this result in construction completion for site (Yes/No)?


Site Description
(size, volume of waste, current and future land uses of the site and land adjacent to the site, etc.):


Response Action Summary

1)     Describe briefly, site activities conducted in the past or currently underway.

2)     Specifically identify the discrete activities to be considered by this panel evaluation along
       with associated cost and projected schedule.

3)     What are the projected additional activities that will result in this site reaching
       construction completion? What is the estimated cost of these additional activities?


Cost of Proposed Response Action: $____________________
(If the response action exceeds $10 million, consultation with the Regional Center Director to
discuss alternatives should precede ranking by panel. Deviation from project budget, resulting in
the exceedance of the $10 million limit, requires HQ consultation.)

Planned FY 2002 and FY 2003 Needs (If large dollar project, please provide a quarterly
forecast): $____________________ (Note: State match = 10%)




                                                  29
                                                  65
Readiness Criteria:

Date State Superfund Contract or State Cooperative Agreement will be signed (Month)?

If non-time critical, is State cost sharing (provide details)?

       State match = 10%

If Remedial Action when will Remedial Design be 95% complete (Month)?

When will Region be able to obligate money to the site?

Estimate when on-site construction activities will begin ?

I.     Principal Contaminants (Please provide average and high concentrations)
                                                      Concentration
       Contaminant        Media                (Average)            (High)
1)                                                                                        .
2)                                                                                        .
3)     ___________                                                                        .
4)     ___________                                                                        .

Media: (AR) Air, (SL) Soil, (ST) Sediment, (GW) Ground Water, (SW) Surface Water


II.    Site/Contaminant Stability (Describe the means/likelihood that contamination could
       impact other areas/media given current containment):


III.   Summarize Human Exposures/Risks (Describe the Exposure Scenario(s) driving the
       risk and remedy (Include: current/future, on-site/off-site, media, exposure route,
       receptor):

       Estimate the number of people reasonably anticipated to be exposed in the absence of any
       future EPA action for each medium for the following time frames:

       Medium                  < 2yrs.                 < 10 yrs.         > 10 yrs.
                               _____________           _____________     ______________

       Discuss the likelihood that the above exposures will occur?


       Medium                  < 2yrs.                 < 10 yrs.         > 10 yrs.
                               _____________           _____________     ______________

       Discuss the likelihood that the above exposures will occur?


                                                  30
                                                  66
IV.    Explain any Ecological Risks/Impacts

Describe any observed or predicted adverse impacts on ecological receptors including their
ecological significance and likelihood of occurring, size of the impacted area.

Would natural recovery occur if no action was taken? If so, estimate how long this would take.


V.     Programmatic Considerations

Describe the degree to which the community accepts the response action:

Describe the degree to which the State accepts the response action:

Describe other programmatic considerations (e.g., natural resource damage claim pending,
Brownfields site, uses an innovative technology, construction completion, economic
redevelopment, environmental justice, etc.):




                                               31
                                               67
                                                                                      Appendix D

                     EPA’s Cost Estimating Process
Recognizing that unique and changing site circumstances require flexibility in estimating costs
for cleanup, EPA estimates costs throughout the Agency's process of prioritizing sites for Federal
action, and costs change as projects move forward and more definitive scopes emerge. EPA
estimates technical support and supply costs for all phases of cleanups through Independent
Government Cost Estimates (IGCEs). EPA estimates costs as one of nine criteria to choose
suitable cleanup options. After selecting a cleanup option, EPA performs a detailed construction
cost estimate. EPA's guidance documents address cost estimates of cleanup options developed
during site investigations, assist project managers with the preparation of assignment-specific
IGCEs, and provide cost estimating resources including a web-based “cost-estimating toolbox.”
Regional project managers do not document historic project costs; rather, they estimate initial
costs and ask other prior and current site teams about their cost experiences.

EPA estimates costs throughout the cleanup process. EPA has recently begun to invest more
money in the study and design phases of cleanup to develop more accurate cost estimates earlier
in the process. Very little cost estimating occurs during the site discovery phase, and the cost
estimating that occurs during site discovery assists EPA staff with site characterization. EPA’s
actual cost estimating process begins during the Remedial Investigation/Feasibility Study
(RI/FS) phase after EPA adds a site to its prioritized list for Federal action but prior to actual
cleanup. For most cost estimates developed during this phase, EPA relies on anecdotal and
empirical data from past sites. According to the National Advisory Council for Environmental
Policy and Technology, accurate cleanup estimates are difficult to predict because EPA only has
cost information for sites or portions of sites where EPA pays for cleanups using program funds.
Potentially responsible parties are not obligated to disclose the amount they spend on cleanup.

According to EPA projections, costs really begin to narrow as EPA better characterizes the site
(which reduces uncertainty) and designs its cleanup process. EPA uses cost estimates developed
while evaluating and comparing cleanup alternatives to select a suitable option, not for
establishing project budgets or negotiating enforcement settlements. EPA begins tracking costs
once the Agency selects a cleanup option so as not to prejudice the selection process.

When selecting the most suitable cleanup option for a specific site, EPA uses screening-level
cost estimates to screen out disproportionately expensive alternatives in the scoping phase and to
help determine what alternatives to retain for detailed analysis. The screening process evaluates
cleanup alternatives with respect to their effectiveness, implementability, and cost, and EPA does
not carry forward higher cost alternatives. The basis for a screening-level cost estimate can
include a variety of sources, such as cost curves, generic unit costs, vendor information, standard
cost estimating guides, historical cost data, and estimates for similar projects, as modified for the
specific site. EPA considers both capital and operation and maintenance costs, where
appropriate, at the screening level. EPA screens out alternatives if they: (1) provide
effectiveness similar to that of another alternative by employing a similar method of treatment or
engineering control, but at greater cost; or (2) have costs that are grossly excessive compared to
their overall effectiveness. After screening alternatives, EPA conducts extensive investigations

                                                 32
                                                 68
to provide sufficient data to fully develop and evaluate alternatives during the next and final
stage of selecting a cleanup option.

The detailed analysis that follows supports the design of selected alternatives, helps reduce cost
and performance uncertainties for cleanup alternatives to acceptable levels, and aids EPA’s
selection of cost-effective cleanup options. EPA evaluates cleanup alternatives in detail with
respect to the aforementioned nine criteria2 that the Agency developed to address the statutory
requirements and preferences of the program. Cost functions as one of five “balancing” criteria
used to assess cleanup alternatives. EPA analyzes the cleanup alternatives individually against
each criterion and then compares each alternative against one another to determine their
respective strengths and weaknesses. EPA evaluates cost along with the other “balancing”
criteria in determining which cleanup option represents the practicable extent to which EPA can
apply permanent treatment solutions or resource recovery technologies at the site. While EPA
balances the reasonableness of the cost when evaluating cleanup options, cost does not
predominate over other factors, such as long-term effectiveness and permanence. EPA’s
National Remedy Review Board helps review cleanup options to control response costs and
promote consistent and cost-effective decisions.

The accuracy of potential cleanup option cost estimates increase as sites move through EPA’s
prioritization process, with the detailed analysis phase achieving a greater level of accuracy than
screen-level estimates (see illustration that follows, which is Exhibit 2-3 in EPA’s “A Guide to
Developing and Documenting Cost Estimates During the Feasibility Study). EPA estimates a
+50% to -30% accuracy rate for cost estimates performed during the Agency’s detailed analysis
of cleanup alternatives. Once EPA completes the final cleanup design, the accuracy range of the
cost estimate narrows to a +15% to -10% range as costs still change along the tail end of the
process.




2
  EPA evaluates cleanup options with respect to: (1) overall protection of human health and the environment;
(2) compliance with applicable or relevant and appropriate requirements; (3) long-term effectiveness and
permanence; (4) reduction of toxicity, mobility, or volume; (5) short-term effectiveness; (6) implementability;
(7) cost; (8) State acceptance; and (9) community acceptance.



                                                         33
                                                         69
                                                                                       From:
                                                                                     A Guide to
                                                                                  Developing and
                                                                                 Documenting Cost
                                                                                 Estimates During
                                                                                   the Feasibility
                                                                                  Study (EPA 540-
                                                                                     R-00-002)
                                                                                    (July 2000).




When estimating cleanup option costs, EPA estimates technical and contractor costs, as well as
construction costs necessary to implement the selected option. First, EPA estimates the costs of
technical support through an IGCE conducted in-house by EPA staff for each work assignment at
a site. Work assignments represent a specific step, or several steps, in EPA’s site prioritization
process, such as initial assessment and inspection following site discovery, or work assignments
to prepare remedial designs for cleanup actions. An IGCE includes a detailed estimate of the
cost to the government for services and/or supplies typically acquired from contractors for the
specific work assignment. The main components of IGCEs include costs for labor, travel,
subcontracts, special equipment, and general and administrative costs. The estimate must
represent the government’s own in-house estimate based upon information specific to the work
at hand, and the estimate can include use of historical cost data from similar projects. The IGCE
should represent a “fair and reasonable” cost of doing the work, and the IGCE provides the work
assignment manager with information about how much it will cost for a contractor to complete a
technical assignment. Since most EPA Regions lack in-house cost estimators, EPA issued a
memorandum in June 2004 to assist work assignment managers in preparing IGCEs. EPA also
provides regional staff an Internet-based “Cost Estimating Toolbox” that includes guidance
documents and worksheets to help project managers prepare site-specific IGCEs and document
assumptions made in preparing these estimates.

EPA conducts the second type of cost estimate after the Agency selects a cleanup option that
meets statutory and regulatory requirements. EPA employs outside contractors to prepare
construction cost estimates, or detailed estimates of the cost to construct the selected cleanup
action. Contractors base construction cost estimates on the type and quantities of labor,


                                                 34
                                                 70
equipment, and materials required to perform the work. RS Means Cost Guides construction
cost manuals provide useful information. Means data often serves as the standard for
construction costs both in the private sector and throughout government, including such agencies
as the Federal Housing Administration, the Department of Defense, and the General Services
Administration. EPA staff include contractors’ construction cost estimates in the IGCE for the
cleanup action work assignment, which follows the completion of the design of the chosen
cleanup option. EPA’s Guidance on Preparing Independent Cost Estimates states that
contractors should not use estimates developed during the evaluation of cleanup alternatives
(with a typical expected accuracy range of +50% to -30%) for construction cost estimates.
Third-party contractors often review construction cost estimates. EPA recommends that project
managers obtain third-party review of cost estimates prior to advertising for bids, and that the
third-party reviewer consists of a qualified cost estimator employed by the U.S. Army Corps of
Engineers. EPA documents each cost estimate for the different cleanup phases in CERCLIS.
While CERCLIS documentation of cost estimates provides an appropriate audit trail, some EPA
staff believe it unnecessary to document every cost-related nuance.

The Superfund 120-Day Study recommended that EPA prepare and distribute a “cost cookbook”
describing frequent construction tasks and estimates of the hours needed to complete the tasks to
help regional staff prepare cost estimates. This “cookbook” could include both good and bad
examples and experiences from Regions. Additionally, the Government Accountability Office
has recommended that EPA maintain data on actual costs of contracted work on a web-based
tool accessible by cost estimating staff. The Government Accountability Office also noted the
need for Federal agencies to collect detailed site-specific data that includes both current and
historical task and cost information, and that Federal agencies utilize co-located agencies with
cost estimating expertise for assistance with cost estimating. EPA participates in a Cost
Estimating Workgroup presently composed of members from the U.S. Army, U.S. Air Force,
U.S. Navy, National Aeronautics and Space Administration, and Department of Energy. All
agencies in the Workgroup, with the exception of EPA, have in-house cost estimating expertise.

EPA-OIG issued a 2003 report, “Implementation, Information, and Statutory Obstacles Impede
Achievement of Environmental Results from EPA’s National Hardrock Mining Framework”
(Report No. 2003-P-00010; August 7, 2003) stating that EPA does not have current, accurate
data on the extent of financial and environmental challenges posed by hardrock mining. EPA’s
response to the report included existing sources of information on the environmental impacts
from mining such as: (1) environmental impact data on priority mine sites; (2) updated mining
impact data in Land Disposal Restriction Phase IV technical background documents;
(3) characterization of mining impacted waters when issuing mine site National Pollutant
Discharge Elimination System permits; (4) evaluation of the potential for adverse environmental
impacts during review of mine site Environmental Impact Statements; (5) characterization of
radiological impacts of mining on Navajo lands; and (6) information on environmental releases
from mine sites through the Toxics Release Inventory program. Each source could help
determine the environmental liabilities of hardrock mine sites for financial statement purposes.
Other documents that can assist in assessing the costs, liabilities, and environmental impacts of
mining include EPA’s Abandoned Mine Lands website, EPA’s Publications on Mining Waste
Management in Indian Country, and the Agency’s Abandoned Mine Site Characterization and
Cleanup Handbook.


                                               35
                                               71
                                                                             Appendix E

                                  Distribution

Environmental Protection Agency

      Office of the Administrator
      Acting Assistant Administrator for Solid Waste and Emergency Response
      Deputy Assistant Administrator for Solid Waste and Emergency Response
      Agency Followup Official (the CFO)
      Agency Followup Coordinator
      General Counsel, Office of General Counsel
      Audit Followup Coordinator, Office of Solid Waste and Emergency Response
      Associate Administrator for Congressional and Intergovernmental Relations
      Associate Administrator for Public Affairs
      Director, Office of Regional Operations
      Director, Office of Superfund Remediation Technology Innovation
      Deputy Director, Office of Superfund Remediation Technology Innovation
      Regional Administrators
      Inspector General


Department of the Interior

      Inspector General




                                           36
                                           72
73
74
75
76
77
78
79
80
81
82
83
84
85
86
87
88
89
90
91
92
                                                                    Appendix 7


  STATUS OF AUDIT RECOMMENDATIONS


Recommendations             Status                 Action Required

        1          Management concurs;      Provide the DOI Deputy Assistant
                   additional information   Secretaries’ Advisory Group on
                   needed.                  Environmental Policy and
                                            Compliance (DAS group) decision
                                            that OEPC implement the
                                            recommendation to develop and
                                            implement uniform policies and
                                            procedures for bureaus to both
                                            identify and prioritize hazardous
                                            sites and an estimated target date
                                            and titles of officials responsible
                                            for implementation.

        2          Management concurs;      Provide the DAS group decision
                   additional information   that OEPC oversee the bureaus’
                   needed.                  actions to ensure compliance with
                                            policy and procedures and an
                                            estimated target date and titles of
                                            officials responsible for
                                            implementation.

   3, 4, 5, 6, 7   Resolved; not            No further response to the Office of
                   implemented              Inspector General is required. The
                                            recommendations will be referred
                                            to the Department’s Focus Leader
                                            for Management Accountability
                                            and Audit Follow-up for tracking
                                            of implementation.




                                     93
This Page Intentionally Left Blank




               94
